Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2010 – September 30, 2010
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and dis-
cussed in this semiannual report

CHALLENGES                 BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION                GSA’s procurement organization awards and administers 2
PROGRAMS                   government-wide contracts worth $100 billion. With
                           growing programs and shrinking numbers of qualified
                           acquisition personnel, attention to important fundamentals
                           such as ensuring competition, meaningful price analysis,
                           and implementation of statutory and regulatory
                           compliance-type requirements has diminished.

INFORMATION                Technology applications have increased exponentially          No
TECHNOLOGY                 as “E-Gov” is used to better manage operations and            Reports
                           interface with the public, but complex integration and        This
                           security issues exist.                                        Period

FINANCIAL                  GSA systems, including its financial system of record         6
REPORTING                  (Pegasys),continue to have deficiencies in interoperability
                           and interfaces. As a consequence, GSA management
                           continues to rely heavily on manual workarounds and
                           significant adjusting entries to prepare the financial
                           statements and related note disclosures.

PROTECTION OF              GSA is responsible for protecting the life and safety of      6
FEDERAL FACILITIES         employees and public visitors in Federal buildings. The
AND PERSONNEL              increased risks from terrorism have greatly expanded the
                           range of vulnerabilities. A broadly integrated security
                           program is required.

HUMAN CAPITAL              GSA has an aging workforce and is facing significant loss     No
                           of institutional knowledge due to retirements, including a    Reports
                           loss of key management staff over the past year. Better       This
                           recruitment and training programs are needed to develop       Period
                           the 21st century workforce.

FEDERAL                    Faced with an aging, deteriorating inventory, GSA is          No
BUILDINGS                  challenged in making the best use of available funds          Reports
FUND                       to deliver high performance workplaces on schedule            This
                           and within budget.                                            Period
                            Foreword



I am pleased to provide this report to the people of the United States and their elected
representatives in Congress. The Office of Inspector General (OIG) at GSA has been
working successfully to identify and prevent waste, fraud, and abuse in connection with the
programs and operations of GSA. This reporting period, we issued 66 audit reports and
identified over $342 million in funds recommended for better use and questioned costs. We
also made 227 referrals for criminal prosecution, civil litigation, and administrative action—
activities that both accomplish our mission and serve as a deterrent. In this reporting
period, GSA achieved savings totaling almost $419 million from management decisions on
audit findings and from civil settlements and investigative recoveries.

One of our most notable successes of this reporting period was the settlement involving
EMC Corporation, which agreed to pay the United States $3.5 million to settle claims that it
sold of defective or potentially defective computer platforms and integrated circuits.
Following this settlement, on May 17, 2010, EMC Corporation agreed to pay an additional
$87.5 million to the United States to resolve allegations that its contract prices were inflated
due to misrepresentations and that it engaged in an illegal kickback scheme. This reporting
period saw four other major civil settlements, as well as other criminal restitutions and audit
recommendations.

The GSA OIG also established an internal green initiative to better understand methods of
environmental stewardship in GSA’s practices and operations in response to the Agency’s
commendable environmental sustainability goals. Furthermore, the OIG recovered three
more Works Progress Administration artworks in its effort to preserve these national
historical treasures.

The banner accomplishments within this report reflect the OIG’s effectiveness in combating
waste, fraud, and abuse on behalf of the American taxpayer.



Brian D. Miller
Inspector General
September 30, 2010




                                                             April 1, 2010 – September 30, 2010 i
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xi

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Financial Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

   Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . .6

American Recovery and Reinvestment Act of 2009 . . . . . . . . . . . . . .7

Other Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9

   FAR Rule for Contract Disclosure . . . . . . . . . . . . . . . . . . . . . . . . .10

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .11

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .18

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .20

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .22

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . .31

Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . .36

Appendix III – Audit Reports over 12 Months Old, . . . . . . . . . . . . . .43
  Final Agency Action Pending

Appendix IV – Government Contractor Audit Findings . . . . . . . . . . .49

Appendix V – Audits Without Management Decision . . . . . . . . . . . .50

Appendix VI – Peer Review Results . . . . . . . . . . . . . . . . . . . . . . . . .51

Appendix VII – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .52

Appendix VIII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .53




                                                               April 1, 2010 – September 30, 2010 iii
                      Summary of OIG Performance

                       April 1, 2010 – September 30, 2010

OIG Accomplishments    Total financial recommendations                               $349,014,107

                       These include:

                       • Recommendations that funds be put to better use             $342,061,997

                       • Questioned costs                                              $6,952,110

                       Audit reports issued                                                      66

                       Referrals for criminal prosecution, civil
                       litigation, & administrative action                                      227

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                    $419,654,428

                       Indictments and informations on criminal referrals                        26

                       Cases accepted for criminal prosecution                                   38

                       Cases accepted for civil action                                            8

                       Successful criminal prosecutions                                          22

                       Civil settlements                                                         12

                       Contractors/individuals suspended and debarred                            74

                       Employee actions taken on administrative referrals
                       involving GSA employees                                                   12




                                                                    April 1, 2010 – September 30, 2010 v
                                            Fiscal Year 2010 Results



During Fiscal Year 2010, OIG activities
resulted in:
• Almost $520 million in recommendations that funds                • 50 criminal indictments/informations and 58 successful
  be put to better use and in questioned costs. If                   prosecutions on criminal matters referred.
  adopted, these recommendations ultimately result in
  savings for the taxpayer.                                        • 18 civil settlements.

• 122 audit reports that assisted management in                    • 40 employee actions taken on administrative referrals
  improving the efficiency and effectiveness of Agency               involving GSA employees.
  operations.
                                                                   • 72 contractor/individual suspensions and 64 contractor/
• Over $501 million* in management decisions                         individual debarments.
  agreeing with audit recommendations; $620.4 million
  in criminal, civil, administrative, and other recoveries.        • 2543 Hotline calls and letters received of which 180
                                                                     were referred for criminal or civil investigations, 84
• 281 new investigations opened and 257 cases closed.                were referred to other agencies for follow up, and 168
                                                                     were submitted to GSA for review and appropriate
• 74 case referrals (126 subjects) accepted for criminal             administrative actions.
  prosecution and 23 case referrals (27 subjects)
  accepted for civil litigation.




* The management decision amount reported in the Semiannual
Report to the Congress, dated April 30, 2010, included $45,134
of funds be put to better use that has been excluded from the FY
2010 Results since the report containing these savings has been
rescinded.


vi Semiannual Report to the Congress
                                              Executive Summary



During this semiannual period, the OIG continued to direct      by refusing to do business with irresponsible contractors.
its auditing and investigative resources toward what it has     Auditors reviewed the GSA’s Center for Suspension and
identified as the major management challenges facing            Debarment (CSD), and found that the Office of the Chief
GSA. The OIG conducted audit reviews and investigations         Acquisition Officer had not fully addressed the CSD
to ensure the integrity of the Agency’s financial statements,   staffing deficiencies identified in a 2007 audit. In addition,
programs, and operations, and to ensure that the                the audit report recommends that the CSD expressly take
taxpayers’ interests were being protected. The OIG also         timeliness into account in its performance measurements
continued to initiate actions to prevent fraud, waste, and      and more actively seek new potential cases (page 2).
abuse, and to promote economy and efficiency throughout
GSA. The OIG’s resources have been directed specifically        Audit of GSA’s Acquisition of Services for the
toward conducting preaward, financial, and programmatic         International Trade Center at the Ronald Reagan
audits; management control assessments; contract                Building. The Office of Audits reviewed a contract for
reviews; investigations of fraud, abuse, and related actions    the development, operation, and management of the
by GSA employees and government contractors; and                International Trade Center space. The audit revealed that
litigation support in civil fraud actions, enforcement          the contract’s scope of work was expanded in violation of
actions, criminal prosecutions, contract claims, and            regulatory requirements; the contract’s compensation
administrative actions, all in an effort to maintain the        terms and various expansions were highly favorable to
integrity of GSA programs.                                      the contractor and shifted performance and cost risk to
                                                                the government; and the contract resulted in millions of
Management Challenges                                           dollars in payments to the contractor for work for which
                                                                the contractor had already been compensated (page 3).
The OIG continued to strive to provide the high level of
quality in reviews and recommendations for which it is
                                                                Review of the Federal Acquisition Service’s Client
known, in order for GSA to continue leading the
                                                                Support Centers. In conjunction with the Department of
government in contracting and procurement. During this
                                                                Defense Inspector General, GSA OIG auditors reviewed
semiannual period, the focus has been on acquisition
                                                                the Federal Acquisition Service’s Client Support Centers
programs, financial reporting, protection of federal
                                                                for compliance with federal and defense acquisition
facilities and personnel, the federal buildings fund, and the
                                                                regulations. The review identified minor deficiencies in
American Recovery and Reinvestment Act (Recovery
                                                                funds management, task order award and administrative
Act). The following are significant audits and reviews that
                                                                processes, and task order file documentation procedures,
identify major issues facing GSA.
                                                                as well as an illegal use of expired funds to pay for goods
                                                                and services (page 4).
Acquisition Programs
Significant Preaward Reviews and Other Audits. The              Review of Controls within FAS’s Office of
OIG’s preaward review program provides information to           Infrastructure Optimization – HSPD-12 Branch.
contracting officers (COs) for use in negotiating contracts.    Auditors reviewed GSA’s implementation of Homeland
This period, the OIG performed preaward reviews of 40           Security Presidential Directive 12 (HSPD-12), which
contracts with an estimated value of $5.4 billion. We           creates heightened requirements for identification
recommended that more than $342 million of funds be             devices and security. The review disclosed weaknesses
put to better use. During this reporting period,                in the administrative control of funds as well as violations
management decisions were made on 28 preaward                   of the Federal Acquistion Regulation (FAR), including
reports, which recommended that over $206 million of            potential violations of the bona fide needs rule. In
funds be put to better use. Management agreed with 100          addition, the multi-agency contract to procure services
percent of the recommended savings (page 2).                    needed for compliance with HSPD-12 administered by
                                                                GSA has engendered various fiscal law and budgetary
Review of GSA’s Suspension and Debarment                        problems (page 5).
Process. Suspension and debarment are discretionary
actions the Government takes to protect taxpayer dollars


                                                                                       April 1, 2010 – September 30, 2010 vii
                                             Executive Summary



Financial Reporting                                            Procurement of Photovoltaic System at the Denver
Audit of GSA’s Fiscal Year 2009 Direct Pay Purchases.          Federal Center. A review of the construction of a solar
GSA’s Office of the Chief Financial Officer requested that     power system at the Denver Federal Center revealed
the GSA OIG review GSA’s Fiscal Year 2009 direct pay           that the $18.4 million project will not see a return on
purchases to determine whether these purchases followed        investment for 85 years (page 8).
proper procedures. The review found untimely-paid
invoices, a weakness with regard to segregation of duties,     Construction Management Services Projects in
and a transaction without supporting documentation, in         North Dakota. A review of a task order issued by the
contravention of GSA’s Policy on Submission of Invoices        Rocky Mountain PBS office revealed $5,300 in
to the Office of Finance and the Prompt Payment Act            unnecessary or unsubstantiated expenses (page 9).
(page 6).
                                                               Renovations of the Roman Hruska Courthouse.
Protection of Federal Facilities and Personnel                 Auditors found that a sole-source contract to replace the
                                                               roofing systems of the federal courthouse in Omaha,
Alert Report – Review of Health and Safety Conditions
                                                               Nebraska had several procurement irregularities, and was
at the Bannister Federal Complex, Kansas City,
                                                               awarded neither to a local firm nor a small business as
Missouri. Pursuant to a congressional request, the Office
                                                               required by small business set aside guidelines (page 9).
of Audits reviewed the health and safety conditions at the
Bannister Federal Complex in Kansas City, Missouri. To
                                                               Letter to Congressman Issa. In response to a
date, the review has determined that GSA has not been
                                                               congressional request, the GSA OIG determined that
fully responsive to Freedom of Information Act requests
                                                               GSA’s construction contracts funded by the Recovery
regarding health and safety matters at the site (page 6).
                                                               Act require the projects to display signs indicating the
                                                               Recovery Act funding, and that the requirements are
American Recovery and Reinvestment Act
                                                               generally being followed, but for a small number of size
50 UN Plaza Renovation Project Construction                    and quantity deviations (page 9).
Contract. A review of the GSA Public Buildings Service’s
(PBS’s) $121 million high performance green building           Other Initiatives
modernization project at the federal building in San
                                                               FAR Contractor Disclosure Program. The GSA OIG
Francisco revealed that a “Comprehensive Project Plan”
                                                               continues to process, evaluate, and act on the disclosures
was not prepared for the project, although this is required
                                                               made by contractors pursuant to the FAR rule requiring a
by PBS’s routine project planning process (page 7).
                                                               contractor code of business ethics and conduct, an
                                                               internal control system, and disclosure to the government
Successful Purchase of Vehicles. The GSA OIG’s
                                                               of certain violations of criminal law, violations of the civil
audit found that the Federal Acquisition Service (FAS)
                                                               False Claims Act, and significant overpayments. During
effectively carried out the replacement of federal fleet
                                                               this reporting period, the GSA OIG received 11
vehicles in accordance with the Recovery Act’s goals
                                                               disclosures. These disclosures involved timekeeping
and directives. Although of minimal impact, the lack of
                                                               system errors, compliance failures, employee fraud and
publicity regarding modifications to the replacement plan
                                                               inappropriate behavior, misuse of funds, and intentional
did not appear to fully support the Recovery Act’s
                                                               and unintentional overbilling (page 10).
transparency objectives (page 8).

Improper Obligation of Recovery Act Funds. Ongoing             Promoting and Protecting Integrity
oversight of the construction project at the St. Elizabeth’s   GSA is responsible for providing working space for one
campus for the new Department of Homeland Security             million Federal employees. The Agency also manages
headquarters revealed that GSA may have improperly             the transfer and disposal of excess and surplus real and
obligated $28.9 million in Recovery Act funds. This            personal property, and operates a government-wide
matter has been referred to PBS’s Office of Legal              service and supply system. To meet the needs of
Counsel (page 8).                                              customer agencies, GSA contracts for billions of dollars


viii Semiannual Report to the Congress
                                              Executive Summary



worth of equipment, supplies, materials, and services           the Ports Authority of New York and New Jersey OIGs
each year. When systemic issues are identified during           revealed mail fraud offenses (page 12). Former owner of
investigations, they are shared with GSA management             M&A Supply pleaded guilty to federal violations related to
for appropriate corrective actions. During this period,         his involvement in a conspiracy to filing false government
criminal, civil and other monetary recoveries totaled           claims on the GSA schedule program (page 12). A joint
almost $206 million.                                            investigation conducted by the GSA OIG, the FBI, and the
                                                                Treasury OIG led to the sentencing of a con man to serve
Significant Civil Actions and Criminal Investigations           144 months for state theft violations and to pay over
Civil Recoveries. EMC Corporation agreed to pay the             $290,000 in restitution to his victims, after fraudulently
U.S. government $3.5 million to settle claims that it sold      using the Treasury and GSA seals to authenticate false
defective or potentially defective computer platforms and       information to secure investments in fictitious humanitarian
integrated circuits. Following this settlement, EMC agreed      projects and business ventures throughout the world
to pay an additional $87.5 million to resolve claims that by    (page 13). Two former United Rentals, Inc., employees
misrepresenting its commercial pricing practices, EMC           were debarred from participating in government
fraudulently induced GSA to enter a contract with inflated      procurement programs after the OIG revealed that the
prices (page 11). Hewlett Packard (HP) agreed to pay the        Securities Exchange Commission had filed federal
government a total of $55 million to resolve claims that HP     securities fraud charges against them (page 13). An FAA
made payments to influence the purchase of HP products          repair technician was sentenced to 42 months of
by federal agencies in violation of the Anti-Kickback Act       incarceration, three years of supervisory release, and 100
and that HP had knowingly failed to provide current,            hours of community service, and was ordered to make
accurate, and complete commercial pricing information to        restitution of over $186,600 after he was convicted of
GSA, resulting from a GSA OIG qui tam investigation             unlawfully obtaining excess government property (page
(page 11). Cisco Systems, Inc., and Westcon Group North         13). A former reserve police officer was sentenced to six
America, Inc., agreed to pay $44.16 million and $3.84           months confinement for pawning a submachine gun
million respectively to the government after both               acquired by his police department through the GSA
companies admitted to failing to disclose relevant pricing      Firearms Donation Program (page 13). A former
information to the government and failing to comply with        Department of Energy employee was sentenced to 36
price reduction obligations under the contract and related      months of supervised release and ordered to pay a $5,000
letters of supply (page 11). Learning Tree International,       fine after pleading guilty to steering a federal renovation
Inc. agreed to a negotiated settlement payment of $4.5          contract to her husband, who was also sentenced (page
million to resolve claims arising from the company’s billings   14). An Army Reserve Staff Sergeant, Chief Warrant
to the government for training services that were not           Officer, and Sergeant were convicted in separate incidents
provided (page 11). Gilbane Building Company settled            of illicit purchasing through the GSA Advantage system
with the government for $1.3 million for its alleged failure    (page 14).
to make timely progress payments to its subcontractors in
violation of its federal government contracts and the False     False Statements and Obstruction of Justice. In June
Claims Act (page 12). Furuno USA, Inc., agreed to pay the       2010, the President of the Texas Firebirds Volunteer
government $695,063 for violations related to the False         Fire Department pleaded guilty to making a false
Claims Act after the company knowingly misrepresented           statement to the Federal Aviation Administration in
that its products sold under government contracts were          connection with an aircraft obtained for conducting law
manufactured in the U.S. or Japan, when in fact, many           enforcement and firefighting operations but not ever
products were manufactured in China, in violation of the        used for such operations (page 12).
Trade Agreements Act (page 12).
                                                                Fleet and Travel Card Abuse. A former Public Building
Theft and Fraud. A GSA contractor for Omega Service             Service official was sentenced to three months
Maintenance Corporation was sentenced to two years of           confinement, 12 months of probation, and ordered to
supervisory release and a $1,000 fine after a joint             pay $61,000 in restitution and a $100,000 fine after
investigation by the GSA OIG, the Postal Service OIG, and       pleading guilty to federal theft violations by improperly


                                                                                       April 1, 2010 – September 30, 2010 ix
                                          Executive Summary



charging $61,000 to a GSA-issued purchase card for         Integrity Awareness – Highlights
personal expenditures (page 15). An individual was         The OIG presents Integrity Awareness Briefings
sentenced to six months of incarceration in the San        nationwide to educate GSA employees on their
Bernardino County (California) jail after it was           responsibilities for the prevention of fraud and abuse
discovered that he modified a vehicle to hold several      and to reinforce employees’ roles in helping to ensure
hundred gallons of fuel and used them in conjunction       the integrity of Agency operations. This period, we
with a GSA Fuel & Management credit card to commit         presented 26 briefings attended by 597 regional and
theft (page 15). An individual was arrested and charged    Central Office employees (page 16).
with Illinois state misdemeanor theft violations after
making $35,000 in fraudulent charges on government-        OIG Hotline – Highlights
issued credit cards (page 15). A U.S. Navy Petty Officer
                                                           During this reporting period, we received 1,285 Hotline
was convicted after a GSA OIG investigation revealed
                                                           contacts. On the basis of these contacts, 229 Hotline
that he misused a GSA Fleet Management fuel credit
                                                           cases were initiated. In 73 of these cases, referrals were
card for personal gain, resulting in losses to the
                                                           made to GSA program officials for review and action as
government in excess of $1,500 (page 15).
                                                           appropriate; 37 were referred to other Federal agencies
                                                           for follow up; 88 were referred for OIG criminal/civil
WPA Artwork. A coordinated initiative of the GSA OIG,
                                                           investigations or audits; and 12 did not warrant further
the Department of Justice, and the Federal Bureau of
                                                           review (page 16).
Investigation recovered three more historic works of art
produced through the Works Progress Administration
during this reporting period. These include The            Summary of Results
Accident, produced by Adrian Troy in 1936 and              The OIG made over $349 million in financial
recovered from its sale on eBay; German Restaurant, by     recommendations to better use government funds; made
Antoinette Gruppe and also found for sale on eBay; and     227 referrals for criminal prosecution, civil litigation, and
Cowboy Music from Broadway, produced by Harold             administrative actions; reviewed numerous legislative and
West in 1939. Notably, a short documentary film was        regulatory actions; issued 48 subpoenas; and received
produced on the WPA Art Recovery Project that              1,285 Hotline contacts. This period, we achieved
contains interviews with possessors, art historians, and   savings from management decisions on financial
investigators. A premiere has been scheduled for           recommendations, civil settlements, and investigative
October 2010 at the Detroit Institute of Arts (page 15).   recoveries totaling over $419 million.

Suspension and Debarment – Highlights
During this reporting period, the OIG made 106 referrals
for consideration of suspension/debarment to the GSA
Office of Acquisition Policy. GSA issued 62 suspension
and debarment actions based on current and previous
OIG referrals (page 16).




x Semiannual Report to the Congress
                                OIG Organization Chart


                                       Inspector General
                                         Brian D. Miller
                                    Deputy Inspector General
                                       Robert C. Erickson

      Office of Counsel to the IG                                    Office of Evaluation & Analysis
              Richard Levi                                                    Richard Parker
           Counsel to the IG                                                     Director
     Office of Communications &
        Congressional Affairs                               Management          Forensic           Internal
              Dave Farley                                   Evaluations         Auditing            Affairs
                Director


Office of Administration                  Office of Audits                      Office of Investigations
     Larry Lee Gregg                    Theodore R. Stehney                         Gregory G. Rowe
 AIG for Administration                   AIG for Auditing                       AIG for Investigations


  Budget, Planning, and                    Audit Operations Staff
                                                                                     Investigations Operations
  Financial Management                                                                        Division
         Division                            Administration &
                                            Data Systems Staff
    Human Resources                                                                      Regional Offices
       Division                            Special Projects Office                         Washington, DC
                                                                                             New York
                                                                                              Atlanta
 Information Technology                        Information                                    Chicago
        Division                          Technology Audit Office                           Kansas City
                                                                                             Fort Worth
                                                                                           San Francisco
                                               Real Property                                  Auburn
        Facilities                              Audit Office                                  Boston
         Branch                                                                             Philadelphia
                                          Finance & Administrative
                                                Audit Office
        Contracts
         Branch                                                                               Sub-Offices
                                            Acquisition Programs
                                                                                                Denver
                                                Audit Office
                                                                                              Los Angeles
                                                                                                 Miami
                                            Contract Audit Office

                                             Field Audit Offices
                                               Washington, DC
                                                 New York
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco


                                                                           April 1, 2010 – September 30, 2010 xi
(This page was intentionally left blank.)


xii Semiannual Report to the Congress
                                                    OIG Profile



Organization                                                    Division employs innovative auditing and investigative
                                                                techniques to detect fraudulent or abusive conduct
The GSA OIG was established on October 1, 1978 as
                                                                within selected Agency operations and programs. It
one of the original 12 OIGs created by the Inspector
                                                                develops evidence that meets the admissibility
General Act of 1978. The OIG’s five components work
                                                                standard required for prosecution of wrongdoers in
together to perform the missions mandated by
                                                                federal courts. The Internal Affairs Division investigates
Congress.
                                                                allegations of wrongdoing by employees of the Office
                                                                of Inspector General. It also conducts preliminary
The OIG provides nationwide coverage of GSA
                                                                background investigations of new hires and undertakes
programs and activities. Our components include:
                                                                suitability determinations. The Management Evaluations
                                                                Division conducts operational assessments of OIG field
• The Office of Audits, an evaluative organization staffed
                                                                offices and other operating components, and
  with auditors and analysts who provide comprehensive
                                                                undertakes other duties as required by the Inspector
  coverage of GSA operations through program reviews,
                                                                General.
  assessments of management controls, and financial,
  regulatory, and system audits. The office conducts           • The Office of Administration, a professional staff
  external reviews in support of GSA contracting officials       that provides information technology, budgetary,
  to carry out their procurement responsibilities and obtain     administrative, personnel, and communications
  best value for Federal customers and the American              support and services to all OIG offices.
  taxpayers. The office also provides other services to
  assist management in evaluating and improving their
                                                               Office Locations
  programs.
                                                               The OIG is headquartered in Washington, DC, at GSA’s
• The Office of Investigations, an investigative               Central Office Building. Field offices are maintained in
  organization that conducts a nationwide program to           Atlanta, Boston, Chicago, Denver, Fort Worth, Kansas
  prevent, detect, and investigate illegal and/or improper     City, Los Angeles, Miami, New York, Philadelphia, San
  activities involving GSA programs, operations, and           Francisco, Auburn, WA, and Washington, DC. (A contact
  personnel.                                                   list of OIG offices and key officials is provided in
                                                               Appendix VIII.)
• The Office of Counsel, an in-house legal staff that
  provides legal advice and assistance to all OIG              Staffing and Budget
  components, represents the OIG in litigation arising
                                                               As of September 30, 2010, our on-board staffing level
  out of or affecting OIG operations, and manages the
                                                               was 313 employees. The OIG’s FY 2010 budget was $61
  OIG legislative and regulatory review.
                                                               million, which includes $450,000 in reimbursable
• The Office of Evaluation & Analysis is comprised of          authority and $1.55 million in funds appropriated under
  three divisions: Forensic Auditing; Internal Affairs; and    the American Recovery and Reinvestment Act of 2009.
  Management Evaluations. The Forensic Auditing




                                                                                     April 1, 2010 – September 30, 2010 1
                                       Management Challenges



Each year since 1998, we have identified and shared with Congress and senior GSA management what we believe to
be the major challenges facing the Agency. (The current list is summarized on the front inside cover.) This period we
continued our work in addressing these challenges, making recommendations, and working with management to
improve Agency operations. The following sections highlight our activities in these areas.


Acquisition Programs                                         and Budget (OMB) has long recognized the dichotomy
                                                             between the increasing dollar value of GSA’s contract
GSA provides Federal agencies with products and              activities and our limited resources in providing
services valued in the billions of dollars through various   commensurate audit coverage. From 2004 through 2009,
types of contracts. We conduct reviews of these activities   OMB officials provided us additional financial support,
to ensure that the taxpayers’ interests are protected.       through the Federal Acquisition Service (FAS) contract
                                                             program revenue, to increase our work in this area.
Significant Preaward Reviews and Other Audits                These funds enabled us to hire additional staff to support
The OIG’s preaward review program provides                   expanded contract review activities. These activities have
information to contracting officers for use in negotiating   included, primarily, an increase in preaward contract
contracts. The pre-decisional, advisory nature of            reviews, as well as more contract performance reviews.
preaward reviews distinguishes them from other audits.       The reviews evaluate contractors’ compliance with
This program provides vital and current information to       pricing, billing, contract terms, and periodic program
the contracting officers, enabling them to significantly     evaluations to assess the efficiency, economy, and
improve the government’s negotiating position and to         effectiveness of contracting activities. Starting with the
realize millions of dollars in savings on negotiated         Fiscal Year (FY) 2010 appropriations process, OMB has
contracts. This period, the OIG performed preaward           provided this additional support in direct appropriations
reviews of 40 contracts with an estimated value of $5.4      to the OIG to provide continued service in this area.
billion. We recommended that more than $342 million of       During this reporting period, management decisions
funds be put to better use. Three of the more significant    were made on 28 of our preaward reports, which
Multiple Award Schedule (MAS) contracts we reviewed          recommended that over $206 million of funds be put to
had projected government-wide sales totaling more than       better use. Management agreed with 100 percent of our
$1.1 billion.The review findings recommended that $226       recommended savings. We will continue to work closely
million in funds be put to better use. The reviews           with FAS to develop preaward and contract performance
disclosed that information provided by the vendors did       assessment programs that strengthen government-wide
not adequately support the proposed rates, mainly            contracts and provide value for the taxpayers.
because the vendors did not have sufficient commercial
sales. In these reviews, our examination of the alternate    Review of GSA’s Suspension and Debarment
cost build-up information that was provided showed that      Process
the proposed rates were overstated. Additionally, the        Report Number A090221/O/A/F10005, dated September
methodology used by one of the vendors to support its        30, 2010
proposed rates did not accurately reflect the company’s
actual practices, and therefore, resulted in per-review      This review found that the Center for Suspension and
adjustments to the proposed rates.                           Debarment (CSD) could increase its effectiveness by
                                                             addressing staffing deficiencies, developing a
As of September 30, 2010, there were almost 19,000           performance measure for timeliness, managing case
MAS contracts under GSA’s procurement programs with          management documentation, and being more proactive
over $38.9 billion in annual business. History has shown     in identifying potential referrals.
that for every dollar invested in preaward contract
reviews, at least $10 in lower prices, or more favorable     Suspension and debarment are discretionary actions
terms and conditions, are attained for the benefit of the    that the Government takes to protect the public from
government and the taxpayer.The Office of Management         conducting business with irresponsible contractors. The


2 Semiannual Report to the Congress
                                        Management Challenges



Acquisition Programs (continued)

Federal Acquisition Regulation (FAR) provides policies        We recommended that the Associate Administrator for
and procedures that govern suspension and debarment.          Governmentwide Policy ensure:
The objective of this review was to determine the extent
to which the CSD is effective in processing suspension        • The maintenance of adequate staffing for the suspension
and debarment case referrals and taking action in               and debarment function; specifically,
response to those referrals. The review was a follow-up
to our 2007 review, in which we found inadequate                o There should be sufficient dedicated staff to
staffing in the CSD that, in turn, led to a backlog of            support the function;
suspension and debarment case referrals.                        o All staff members should have the necessary skill
                                                                  sets and qualifications to effectively work on
Overall, we found that the Office of the Chief Acquisition        suspension and debarment cases; and
Officer did not adequately address the staffing                 o The administrative process to fill vacancies should
deficiencies identified during our 2007 review. Staffing          be efficient given the critical function of suspension
shortages continued into 2008, with older cases                   and debarment.
remaining to be processed and/or completed, impacting
the CSD’s ability to respond to incoming cases in a           • The SDO establishes a performance measure(s) for
timely manner. While the current Suspension and                 timeliness in processing case referrals.
Debarment Officer (SDO) has made progress in terms
of recruiting the appropriate number of qualified staff,      • The CSD uploads documentation for all EPLS actions
management has not placed a sufficiently high priority          into the case management system.
on staffing this critical function. While the CSD took
action on the majority of its workload in fiscal year 2009,   • The CSD has direct access to resources that enable the
it could have achieved greater productivity had                 division to efficiently obtain information required for
management ensured adequate staffing                            documentation purposes and increases efforts to
                                                                proactively obtain information for potential case referrals.
In addition, we concluded that even though the SDO’s
decision-making process conformed to FAR and other            The Associate Administrator for Governmentwide Policy
relevant criteria, it could be improved by establishing       agreed with the report recommendations.
performance metrics for timeliness. The CSD has not
established performance goals related to timeliness in        Audit of GSA’s Acquisition of Services for the
issuing initial protective action in suspension and           International Trade Center at the Ronald Reagan
debarment.                                                    Building
                                                              Report Number A080106/P/W/R10004, dated May 3, 2010
Further, we noted the CSD’s new electronic case
management system streamlines the process and                 This audit identified numerous and substantial
provides for better management oversight. The system          procurement irregularities under the prior contract with
also generates an e-mail reminder to ensure case              Trade Center Management Associates (TCMA) related
officers enter suspension and debarment actions into          to space in the Ronald Reagan Building. On March 7,
the Excluded Parties Listing System (EPLS) in a timely        1995, GSA awarded a firm, fixed-priced contract to
manner. We believe uploading documentation of all             TCMA for the exclusive right to develop, operate, and
EPLS actions into the new system for verification would       manage the more than 500,000 occupiable square feet
be beneficial.                                                dedicated to the International Trade Center in the
                                                              Reagan Building. Since that time, extensive changes
Finally, the CSD could increase its efficiency and            have been made to the contract. Our objective was to
effectiveness by taking a more proactive approach in          assess whether these changes should have been made,
identifying potential referrals.                              and whether they were properly executed.


                                                                                     April 1, 2010 – September 30, 2010 3
                                        Management Challenges



Acquisition Programs (continued)

We identified several procurement irregularities including:   We recommended that the Acting Regional Administrator:

• TCMA’s scope of work was expanded in a manner that          • Correct the identified contracting and oversight
  was highly favorable to TCMA and contrary to provisions       deficiencies for current and future contract actions,
  of the FAR.                                                   including:

• The contract was modified to incorporate parking garage       o Non-compliance with all applicable government
  management and operations resulting in excessive and            contract laws and regulations;
  unwarranted compensation, inappropriate risk                  o Uncompensated use of space by TCMA;
  assumption, unnecessary incurrence of taxes, penalties        o Lack of meaningful performance measures for the
  and interest, and improper payment of overhead on               contractor;
  those taxes, penalties, and interest.                         o Improper accounting treatment for assets including
                                                                  allocation of expenses and capitalization; and
• A contractual compensation arrangement that                   o Lack of effective acquisition planning for any contract
  inappropriately shifted all cost and performance risk to        modifications and awards.
  the Government, inappropriately reimbursed TCMA for
  in-house labor costs and marketing expenses, and            • Address the inherent conflict of interest that results
  represented an inherent conflict of interest.                 from TCMA as both trade center manager and owner/
                                                                manager of the Aria restaurant.
• Acquisition of construction services through TCMA’s
  contract using non-competitive awards, some of which        • Evaluate and perform analyses of the contract to
  were outside the scope of the contract, included              determine the best course of action to ensure GSA is
  unspecified deliverables and terms and conditions, and        obtaining fair and reasonable pricing, as envisioned at the
  included multiple levels of cost mark-ups and fees.           time of the award of the second contract, before awarding
                                                                additional extensions/option years. Included in this
• Reimbursement of $4.5 million for additional                  evaluation would be a review of the International Trade
  administrative positions which are typically included         Center mission as it affects the stewardship of the asset.
  in a contractor’s general and administrative (G&A)
  expense and therefore should not have been                  • Establish and support an independent line of authority
  reimbursed separately.                                        for the contracting officer and ensure transparency in
                                                                the management of the contract.
• Improper reimbursement of more than $10.6 million in
  additional sales and sales management services for          Management repeatedly concluded that its contract
  work already included in the fixed-price portion of the     actions were sound business decisions and that the
  contract.                                                   modifications to the previous TCMA contract were
                                                              appropriate. Further, management also contends that the
• A lack of oversight and enforcement of contract terms       audit report’s findings have been addressed in the new
  allowing TCMA to occupy substantially more                  contract with TCMA.
  International Trade Center space than provided for under
  the contract at no additional cost.                         The OIG position stated in the audit report remains
                                                              unchanged.
• Other program management deficiencies such as
  failing to enforce contract reporting requirements and      Review of the Federal Acquisition Service’s Client
  existing audit rights, and permitting International Trade   Support Centers
  Center operations to be heavily subsidized by the           Report Number A090139/Q/A/P10011, dated September
  Federal Buildings Fund.                                     17, 2010


4 Semiannual Report to the Congress
                                       Management Challenges



Acquisition Programs (continued)

In accordance with the National Defense Authorization        For the region in which the potential ADA violation occurred,
Act for FY 2008 (Public Law 110-181), the Inspectors         we recommended that the Regional Commissioner work in
General of the General Services Administration (GSA)         conjunction with the Chief Financial Officer, Office of
and the Department of Defense (DoD) jointly assessed         General Counsel, and FAS Controller to determine whether
the procurement policies, procedures, and internal           prior period actions are matters subject to reporting under
controls of the Federal Acquisition Service’s (FAS)          the Antideficiency Act.
Client Support Centers (CSC). This assessment was to
determine whether the FAS’s CSCs are administered in         The FAS Regional Commissioner concurred with this
a manner compliant with FAR and defense procurement          recommendation.
requirements. This is the fifth such joint review we have
performed since 2004.                                        The additional four regional reports did not include
                                                             formal recommendations.
We determined that, overall, the CSCs comply with the
FAR and defense procurement requirements. However,           Review of Controls within FAS’s Office of
we identified minor deficiencies in funds management,        Infrastructure Optimization – HSPD-12 Branch
task order award and administrative processes, as well       Report Number A100055/Q/A/P10010, dated September
as task order file documentation procedures. These           13, 2010
deficiencies were reported to the FAS Commissioner in
a consolidated report as well as to the applicable           Our review of the GSA implementation of Homeland
Regional Commissioners in individual regional reports.       Security Presidential Directive 12 (HSPD-12) disclosed
                                                             that GSA did not always conduct the program’s
We also identified a potential Antideficiency Act (ADA)      procurement activities in compliance with GSA policy and
violation. In this case, the bona fide needs rule was        federal procurement regulations. We found weaknesses
violated when expired funds were used to pay for             in the administrative control of funds as well as violations
goods and services received. Bona fide needs                 of the FAR, including potential violations of the bona fide
violations are correctable by replacing the incorrect FY     needs rule. In addition, GSA’s Managed Service Office
funds with the correct FY funds. However, at the time        (MSO) uses an Interagency Agreement (IA) that is
of our report, this had not taken place. We addressed        inconsistent with guidance established by the Government
this issue in a report to the cognizant Regional             Accountability Office’s (GAO) Decision B-318425.
Commissioner.
                                                             HSPD-12 is a program designed to enhance personal
In the consolidated report, we recommended that the          security, reduce identity fraud, and protect an individual’s
Commissioner of the Federal Acquisition Service:             privacy.The Office of Management and Budget designated
                                                             GSA as the lead agency for providing HSPD-12 and other
• Strengthen and enhance current controls over funds         identity management systems to Federal agencies. GSA
  management;                                                created the MSO to establish a contract to help customer
                                                             agencies facilitate this effort. However, we noted that, in
• Increase oversight and monitoring of task order award      administering the contract, the MSO:
  and administrative actions; and
                                                             • Incurred obligations that exceeded the contract funding
• Develop a record keeping policy for all CSCs requiring       limit;
  the use of an electronic system to assist in maintenance
  and oversight of all task order files.                     • Created a scenario in which some customers placing
                                                               orders using the IA may have violated the bona fide
The FAS Commissioner concurred with the report                 needs rule by inappropriately crossing fiscal years when
recommendations.                                               obligating funds for contract services; and


                                                                                    April 1, 2010 – September 30, 2010 5
                                         Management Challenges



Acquisition Programs (continued)

• Placed the Government at risk for open-ended                 of Invoices to the Office of Finance and the Prompt
  obligations with the HSPD-12 contractor.                     Payment Act. Specifically, we noted a transaction without
                                                               supporting documentation and invoices that were not
The MSO has begun taking steps to address these                paid in a timely manner. In addition, we noted a
issues including efforts to recompete the contract.            weakness with regard to segregation of duties in which
                                                               the same person served as the Direct Pay Approver,
We recommended that the Commissioner of the Federal            Account Classifier, and Funds Authorizer.
Acquisition Service direct the MSO to continue:
                                                               We recommended that the Office of the Chief Financial
• Its on-going efforts for the recompete of the HSPD-          Officer:
  12 contract; to include consideration of contract
  structures (direct-buy, direct-bill, or similar) and/or      • Ensure that the Office of the Chief Financial Officer’s Policy
  business processes that remove the MSO from a                  on Submission of Invoices to the Office of Finance is
  fund management or customer billing role; and                  consistently applied and followed Agency-wide, regarding
                                                                 record retention requirements.
• Working with GSA’s Office of General Counsel (OGC)
  to resolve the MSO’s management of customer agency           • Ensure that payments are made on a timely basis as
  funding in light of GAO Decision B-318425 to include           required by the Prompt Payment Act to avoid late
  developing IAs for specific hardware and/or services to        payment interest penalties.
  ensure proper management of client funds.
                                                               • Implement controls in Pegasys (GSA’s Accounting
The FAS Commissioner agreed with the first
                                                                 System) to insure adequate separation of duties
recommendation.The FAS Commissioner also responded
                                                                 regarding the processing of direct pay purchases.
that FAS is currently working with OGC to respond to
GAO’s opinion.
                                                               The OCFO concurred with the report recommendations.

Financial Reporting                                            Protection of Federal Facilities
GSA systems, including its financial system of record
(Pegasys), continue to have deficiencies in interoperability
                                                               and Personnel
and interfaces. As a consequence, GSA management               GSA has a role in protecting the life and safety of
continues to rely heavily on manual workarounds and            employees and public visitors in Federal buildings. The
significant adjusting entries to prepare the financial         increased risks from terrorism have greatly expanded
statements and related note disclosures.                       the range of vulnerabilities. A broadly integrated security
                                                               program is required.
Audit of GSA’s Fiscal Year 2009 Direct Pay
Purchases                                                      Alert Report - Review of Health and Safety
Report Number A100137/B/F/F10004, dated September 30,          Conditions at the Bannister Federal Complex,
2010                                                           Kansas City, Missouri
                                                               Report Number A100116/P/6/W10001, dated June 24, 2010
At the request of the Office of the Chief Financial Officer
(OCFO), the Office of Inspector General reviewed Fiscal        At the request of Senator Christopher Bond (R–Mo.), we
Year 2009 direct pay purchases. The OCFO wanted to             initiated a review of the health and safety conditions at the
know whether proper policies and procedures were               Bannister Federal Complex (Complex) in Kansas City,
being followed in making these purchases.                      Missouri. During this review, we found that GSA’s Heartland
                                                               Region was not fully responsive to Freedom of Information
Our audit found instances in which GSA did not                 Act (FOIA) requests pertaining to the health and safety
consistently adhere to the OCFO’s Policy on Submission         conditions at the Complex (See Tit. 5 U.S.C. Sec. 552). We

6 Semiannual Report to the Congress
                                          Management Challenges



Protection of Federal Facilities and Personnel (continued)
issued an alert report dated June 24, 2010, to inform the       investigations, over the long term. As part of its core
Heartland Regional Administrator about this issue.              oversight activities, the OIG performs internal audits that
                                                                evaluate GSA functions and programs for economy,
As part of our review, we obtained documentation from           efficiency, and effectiveness; contract audits of proposals
the Missouri Department of Natural Resources                    as well as high value contract modifications and claims
(MDNR). Included in this information was a letter dated         under PBS construction contracts; and investigations of
January 7, 2005, from MDNR to GSA expressing                    criminal activities that impact GSA programs.
concerns about environmental conditions at the
Complex. GSA had received FOIA requests for this                Recovery Act Report - 50 UN Plaza Renovation
letter but did not produce it.                                  Project Construction Contract Review of PBS’s
                                                                Major Construction and Modernization Projects
We provided a copy of the subject letter to a regional          Funded by the American Recovery and
Public Buildings Service (PBS) official and asked him to        Reinvestment Act of 2009
determine whether PBS had the letter in its files. On
                                                                Audit Number A090172/P/R/R10005, dated May 27, 2010
June 21, 2010, a regional PBS official confirmed that the
Heartland Region did have the letter. In response to our
                                                                GSA’s Public Buildings Service (PBS) selected the 50
inquiry as to why the letter had not been produced, the
                                                                United Nations Plaza Federal Building (UN Plaza) in
official stated that the prior electronic search of records
                                                                San Francisco, California to be a High Performance
had not identified the document.
                                                                Green Building Modernization project and allocated
                                                                $121,033,000 of Recovery Act funds for this effort. The
We recommended that the Heartland Regional
                                                                GSA Office of Inspector General is conducting oversight
Administrator review the FOIA request responses for
                                                                of these types of projects.
compliance, and disclose the January 7, 2005, letter
and all other responsive documents as required by law.
                                                                Our review of the planning phase of this project revealed
                                                                that an approved project management plan, formally
The Heartland Regional Administrator concurred with
                                                                known as a Comprehensive Project Plan (CPP) was not
the report recommendations and directed an analysis of
                                                                prepared as required by PBS guidance. Under PBS’s
the FOIA responses to ensure full compliance with FOIA
                                                                routine project planning process, the project would not
procedures.
                                                                have advanced past the planning stage without a CPP
                                                                being approved by a division director. That such a plan
American Recovery and Reinvestment                              was not prepared for the UN Plaza modernization may
Act of 2009                                                     expose PBS to unnecessary project risks.
The American Recovery and Reinvestment Act
(Recovery Act) was enacted to create jobs and stimulate         We initially notified PBS about this matter on August 18,
the economy through a variety of measures that                  2009, and subsequently issued an Audit Memorandum on
modernize the nation’s infrastructure and improve               CPPs on September 29, 2009. PBS agreed that
energy independence. The Recovery Act provides GSA              project management plans would be required for new
with $5.85 billion to renovate and repair Federal               construction and major modernizations, including UN
buildings to improve energy efficiency, construct land          Plaza, and that it would ask project managers to prepare
ports of entry (LPOE), and acquire fuel-efficient               the plans. However, as of January 25, 2010, no CPP had
vehicles. The Recovery Act also provides $7 million to          been prepared for this project.
the GSA OIG for oversight activities.

The oversight of GSA’s implementation of the Recovery
Act requires a full range of oversight activities including
contract, financial, and internal audits, as well as criminal


                                                                                      April 1, 2010 – September 30, 2010 7
                                         Management Challenges



American Recovery and Reinvestment Act of 2009 (continued)

Recovery Act Report – Review of American                       noted that GSA may have improperly obligated $28.9
Recovery and Reinvestment Act Purchase of                      million in Recovery Act funds.
Vehicles
Report Number A090164/Q/5/P10012, dated September 23,          Under the renovation contract, excavation for the U.S.
2010                                                           Coast Guard Headquarters included a line item for soil
                                                               remediation, which GSA paid for with Recovery Act funds.
This review found that the Federal Acquisition Service         However, based on a Memorandum of Understanding
(FAS) effectively carried out the replacement of federal       between GSA and the Department of Health and Human
fleet vehicles in accordance with the Recovery Act’s           Services (HHS), it appears HHS, not GSA, may have
goals and directives. By the end of fiscal year 2009, FAS      been responsible for these costs.
had obligated all of the $300 million authorized by the Act.
                                                               Accordingly, we advised that this matter be referred to
FAS originally planned to replace only automobiles and         the PBS’s Office of Legal Counsel to determine if HHS
small two-wheel drive sport utility vehicles (SUVs).           was, in fact liable for the cost of the soil remediation and,
However, when it did not receive a sufficient number of        if so, that PBS should initiate discussion with HHS for the
requests for replacements from customer agencies, FAS          purposes of cost recovery.
expanded the field to include pick-up trucks, vans, and
larger SUVs. The vehicles added to the fleet were, on          Audit Memorandum: Procurement of Photovoltaic
average, 7.25 miles per gallon or 42.5 percent more fuel       System at the Denver Federal Center: a Limited
efficient than the replaced vehicles. In addition, 35 hybrid   Scope Project Funded by the American Recovery
and 5 compressed natural gas buses were added to the           and Reinvestment Act of 2009
fleet via the award of a new definite quantity contract.       Dated August 18, 2010

Sales of the existing vehicles were well organized and         Our audit of the construction of a photovoltaic electrical
were conducted quickly and efficiently. FAS was able to        power system at the Denver Federal Center found that
sell the replaced vehicles at market prices. We noted,         project will not produce a reasonable return on its $18.4
however, that FAS did not publicize modifications to its       million investment.
replacement plan, thereby limiting the public’s knowledge
of how Recovery Act funds were spent. Also, the addition       The system is to be constructed using carports. It is 65
of the pick-ups, SUVs, vans and buses to the plan was          percent more costly to produce a unit of power using
not publicized.                                                carports as opposed to a ground-mounted system and
                                                               will take approximately 85 years to recover the
Although of minimal impact, the lack of publicity              investment on carport construction.
regarding changes to FAS’s plan did not appear to fully
support the Recovery Act’s and management’s objective          PBS officials in the Rocky Mountain Region promoted
that the vehicle replacement process be conducted in a         many good reasons for investing in energy-efficient
highly transparent manner.                                     technologies. However, a payback range of 55 years (for
                                                               the ground-mounted arrays) to 85 years is well beyond
Audit Memorandum: Improper Obligation of                       what can be construed as a significant return on
Recovery Act Funds                                             investment for the taxpayer.
Dated June 18, 2010

During the course of our ongoing oversight of the
Department of Homeland Security (DHS) headquarters
consolidation project at the Saint Elizabeths campus, we



8 Semiannual Report to the Congress
                                        Management Challenges



American Recovery and Reinvestment Act of 2009 (continued)

Audit Memorandum: Procurement of Construction                 Letter to Congressman Issa
Management Services in Support of the American                Dated July 30, 2010
Recovery and Reinvestment Act of 2009 Projects in
North Dakota                                                  On June 24, 2010, Congressman Darrell Issa (R.-Ca.)
Dated August 19, 2010                                         wrote the Recovery Accountability and Transparency
                                                              Board (Board) regarding signs displayed at Recovery Act
Our review of a $179,680 firm-fixed price task order issued   projects. The Board requested the assistance of GSA’s
by the Rocky Mountain Region PBS office disclosed that it     OIG in responding to the Congressman. Specifically, the
contained more than $5,300 in unnecessary or                  Board asked the GSA OIG to review three areas related
unsubstantiated expenses. This task order was placed          to this issue:
against a FAS multiple award schedule blanket purchase
agreement for construction management services in             • account for all guidance issued by GSA on the posting
support of Recovery Act projects at three federally-owned      of stimulus signs;
facilities in North Dakota.
                                                              • determine whether GSA requires stimulus recipients to
We found that, as written, the task order contained             post signs and whether it has the statutory authority to
duplicate expenses; specified personnel whose                   do so; and
qualifications did not match those required by the
contract; called for open market items that were not in       • determine whether the agency has relaxed such
accordance with contract terms and conditions; and              requirements.
resulted in improperly prepared invoices.
                                                              We found that GSA requires signs on major Recovery
Audit Memorandum: Procurement of Renovations                  Act projects, similar to its normal requirements for usage
for the Roman Hruska Courthouse (Omaha,                       of signs for all of its major construction projects. GSA's
Nebraska) - a PBS Limited Scope Construction                  PBS has issued internal guidance on signs for Recovery
Project Funded by the American Recovery and                   Act projects. This guidance is incorporated into the
Reinvestment Act (ARRA) of 2009                               construction contracts funded by the Recovery Act.
Dated August 19, 2010                                         Generally, these requirements have not been relaxed
                                                              and are being followed. However, as reported by PBS,
Our review of a sole-source contract for the removal and      there have been a limited number of size and quantity
replacement of the existing roof systems at the Roman         deviations from PBS’s policy.
Hruska U.S. Courthouse in Omaha, Nebraska identified
three areas of concern related to the procurement             Other Activities to Date
process. First, PBS contracting personnel did not use         The Office of Forensic Auditing conducted operations
the local Small Business Administration District Office to    that led to the referral of seven Recovery Act contractors
identify a fully qualified 8(a) contractor. Instead the       to the Office of Investigations for further examination.
award was made to a non-local roofing contractor for          Forensic Auditing discovered the anomalies under its
$2.5 million. Second, we found multiple Government            ongoing computer matching program
Cost Estimates that were inconsistent. Finally, the memo
of negotiations was ambiguous and did not accurately          Other Initiatives
depict any cost savings that were achieved.                   In response to recent legislative actions regarding the
                                                              Federal Acquisition Regulation (FAR) rule that requires
                                                              government contractors to disclose to agencies’ OIGs
                                                              credible evidence of violations of Federal criminal law
                                                              under U.S.C.Title 18 or the civil False Claims Act, we


                                                                                    April 1, 2010 – September 30, 2010 9
                                          Management Challenges



Other Initiatives (continued)

initiated a website for contractor self reporting, and          of interest, bribery, or gratuity violations found in Title 18 of
internal procedures for evaluating such disclosures.            the United States Code, or a violation of the civil False
                                                                Claims Act. The rule provides for the suspension or
FAR Rule for Contractor Disclosure                              debarment of a contractor when a principal knowingly fails
Effective December 12, 2008, the Civilian Agency                to timely disclose, in writing, such violations.
Acquisition Council and the Defense Acquisition
Regulations Council agreed on a final rule amending the         The GSA OIG has implemented a website for contractor
FAR to amplify the requirements for a contractor code of        self-reporting and GSA’s contractors may make the
business ethics and conduct, an internal control system,        required disclosures through this website. Further, the OIG
and disclosure to the Government of certain violations of       developed internal procedures to process, evaluate, and
criminal law, violations of the civil False Claims Act, and     act on the disclosures made by contractors. As disclosures
significant overpayments. The final rule implements the         are made, the Office of Audits, Office of Investigations,
Close the Contractor Fraud Loophole Act, Public Law             and Office of Counsel to the Inspector General work
110–252, Title VI, Chapter 1.                                   together examining each acknowledgment and making a
                                                                determination as to what actions are warranted. During
Under the rule, a contractor must timely disclose to the        this reporting period, the OIG received 11 disclosures.
relevant agency’s Office of Inspector General (OIG) in          These disclosures included timekeeping system errors,
connection with the award, performance, or closeout of a        compliance failures, contractor employee fraud/
Government covered contract performed by the contractor         inappropriate behavior, misuse of task order funds, and
or a subcontract awarded thereunder, credible evidence of       overbilling (both intentional and unintentional.)
a violation of Federal criminal law involving fraud, conflict




10 Semiannual Report to the Congress
                                Promoting and Protecting Integrity



GSA is responsible for providing working space for one million Federal employees. The Agency also manages the
transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars worth of equipment,
supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are
protected. In addition to detecting problems in these GSA programs and operations, the OIG is responsible for
initiating actions and inspections to prevent fraud, waste, and abuse and to promote economy and efficiency. When
systemic issues are identified during investigations, they are shared with GSA management for appropriate corrective
actions. During this period, criminal, civil, and other monetary recoveries totaled almost $206 million (see Tables 5
and 6).

Significant Civil Actions and Criminal                         contract or contract modifications; and that HP knowingly
                                                               failed to pass on price reductions to customers buying
Investigations                                                 through the GSA contract or offer the minimum GSA
Electronic Component Supplier Settles Multiple                 contract discount for sales to GSA customers.
Claims
On May 10, 2010, EMC Corporation agreed to pay the             Cisco and Westcon Agree to Pay $48 million to
U.S. Government $3.5 million to settle claims that it sold     Settle Contract Pricing Claims
defective or potentially defective computer platforms and      On September 2, 2010, Cisco Systems, Inc., and
integrated circuits. Following this settlement, on May 17,     Westcon Group North America, Inc., (formerly Comstor)
2010, EMC Corporation agreed to pay an additional              agreed to pay $44.16 million and $3.84 million,
$87.5 million to the U.S. Government to resolve claims         respectively, to the United States Government to resolve
that (1) by misrepresenting its commercial pricing             claims resulting from a GSA OIG qui tam investigation
practices, EMC fraudulently induced GSA to enter a             that was conducted in collaboration with the GSA OIG’s
contract with inflated prices, and (2) EMC engaged in an       Office of Audits. Further, both companies admitted to
illegal kickback scheme.These settlements are the result       having made inaccurate and/or incomplete disclosures
of two separate GSA OIG qui tam investigations that            and/or false statements, and/or presented or caused to
were conducted in close collaboration with the GSA             be presented false claims to the United States, in that
OIG’s Office of Audits, which revealed EMC knowingly           they failed to disclose relevant discount, rebate, true-up,
sold the components to the government although they            benefits, credits, value-added, and pricing information to
did not meet the requisite quality specifications, and over-   the United States. As a result, contract pricing and
billed the government for the products and services it         orders issued pursuant to the contract were inflated, and
provided.                                                      the companies failed to comply with price reduction
                                                               obligations under the contract and related letters of
Hewlett Packard Settles $55 million in Government              supply.
Claims
On August 30, 2010, Hewlett Packard (HP) agreed to             Joint Investigation Reveals Scheme to Retain
pay the Government a total of $55 million ($46 million         Government Payments for Unused Training
toward GSA Claims and $9 million toward Civil Action           On April 6, 2010, Learning Tree International, Inc.,
Claims) to resolve claims resulting from a GSA IG qui          agreed to a negotiated settlement payment of $4.5
tam investigation that was conducted in collaboration          million with the Department of Justice, Commercial
with the GSA OIG’s Office of Audits. The agreement             Litigation Branch, to resolve claims arising from the
settles allegations that HP made payments to systems           company’s billings to the government for training
integrators and other business partners to influence the       services that were not provided. The settlement
purchase of HP products by federal agencies in violation       followed a joint GSA OIG, Department of Agriculture
of the Anti-Kickback Act; that HP knowingly failed to          OIG and Department of Commerce OIG qui tam
provide current, accurate and complete commercial              investigation that revealed that Learning Tree, during
pricing information to GSA during the negotiation of a         the time period of October 1996 through September


                                                                                    April 1, 2010 – September 30, 2010 11
                                Promoting and Protecting Integrity



2007, invoiced federal agencies for multi-course training      sentence is the result of a joint investigation conducted
services through the issuance of “vouchers” and                by GSA OIG, the Postal Service OIG, and the Ports
“passports,” and retained prepaid federal monies for           Authority of New York and New Jersey OIGs, which
unused courses upon the expiration of the period of            revealed that Alvarado deliberately submitted fraudulent
availability of those course packages, in violation of the     concrete test results in conjunction with government
contractual and statutory prohibitions on prepayment           construction projects. The investigation also revealed
and expiration of funds.                                       that Omega had received approximately $360,000 in
                                                               payments from GSA for substandard concrete work
Gilbane Building Company Pays $1.3 Million in                  performed in conjunction with the renovation of a loading
Settlement                                                     dock at the Mitchell H. Cohen Federal Building & U.S.
On September 23, 2010, GSA contractor, Gilbane                 Courthouse in Camden, New Jersey. Previously, on
Building Company settled with the U.S. Government for          August 6, 2009, Alvarado pleaded guilty to mail fraud.
$1.3 million for its alleged failure to make timely progress
payments to its subcontractors in violation of its Federal     GSA Contractor Pleads Guilty to Conspiracy
Government contracts and the False Claims Act. In              On September 29, 2010, Jeffrey Blake, former owner of
reliance on Gilbane’s numerous certifications on its           M&A Supply, pleaded guilty to federal violations related to
progress payment applications that it had timely paid its      his involvement in a conspiracy to filing false government
subcontractors, the Government made hundreds of                claims. Blake’s pleading followed the May 6, 2010, guilty
progress payments to Gilbane.                                  pleading of Michael Morand, who acknowledged his role
                                                               in the scheme to defraud the government. These
Furuno USA Resolves TAA Violations through                     convictions follow a joint investigation conducted by GSA
Settlement                                                     OIG and the Defense Criminal Investigative Service that
On August 26, 2010, the U.S. Department of Justice             revealed M&A Supply had submitted false freight invoices
executed a settlement agreement with Furuno USA,               in excess of $225,000. The investigation further identified
Inc., wherein the company agreed to pay the U.S.               a number of questionable invoices that the company
Government $695,063.29 for violations related to the           submitted to various Department of Defense customers
False Claims Act. This settlement was the result of a          who were using the GSA schedule program.
GSA OIG qui tam investigation conducted in
collaboration with the GSA OIG’s Office of Investigations,     President of Texas Firebirds Volunteer Fire
Department of Homeland Security OIG and the Naval              Department Pleads Guilty to False Statement
Criminal Investigative Service. The investigation              Violation
revealed Furuno USA, Inc., knowingly misrepresented            On June 10, 2010, Darryl Reynolds, President of the
that its products sold under government contracts were         Texas Firebirds Volunteer Fire Department (TFVFD),
manufactured in the United States or in Japan, when in         pleaded guilty to making a false statement to the Federal
fact, many of the products were manufactured in the            Aviation Administration in connection with an aircraft he
People’s Republic of China, in violation of the Trade          obtained for the TFVFD through the Federal Surplus
Agreements Act (TAA). After the company was notified           Property Program. This pleading follows a joint
that the products were in violation of the TAA, Furuno         investigation conducted by the GSA OIG, the Defense
continued to supply products to the government that            Criminal Investigative Service, the Department of
were manufactured in its newly opened Chinese factory.         Transportation OIG, and the Texas Department of Public
                                                               Safety, Texas Ranger Division, which revealed Reynolds
GSA Contractor Employee Sentenced for Mail Fraud               applied for and received eight helicopters and one fixed
On September 23, 2010, Eduardo Alvarado, a Senior              wing aircraft that the U.S. Government donated through
Project Manager for Omega Service Maintenance                  the Federal Surplus Property Program for the specific
Corporation, a GSA contractor, was sentenced to two
years of supervisory release and a $1,000 fine. The



12 Semiannual Report to the Congress
                                 Promoting and Protecting Integrity



purpose of conducting law enforcement, aerial search            FAA Repair Technician and His Brother Sentenced
and rescue and firefighting operations. However, agents         for Their Roles in Excess Federal Property Theft
found no records indicating that the aircraft had been          Scheme
ever used for such operations.                                  On June 30, 2010, Steven Smith was sentenced after
                                                                pleading guilty to engaging in a scheme to defraud and
Con-Man Sentenced for Theft in Connection with                  deprivation of honest services. Smith was sentenced to 42
Securities Scheme                                               months of incarceration, three years of supervised release,
On July 12, 2010, Stephen Jones was sentenced to serve          and 100 hours of community service, and ordered to make
144 months in the Texas Department of Corrections for           restitution in the amount of $186,619. Previously, on June
state theft violations and ordered to pay $290,875 in           29, 2010, his co-conspirator Bradley Gardner was
restitution to his victims. Previously, Jones had been          convicted of federal violations related to Wire Fraud, Mail
indicted on 45 counts for violations of the Texas Securities    Fraud, Theft of Honest Services and Unlawful Monetary
Act and Texas Penal Code.                                       Transactions, and he was later sentenced to 54 months in
                                                                prison. These convictions follow a GSA OIG investigation
This sentence follows a joint investigation conducted by        that was initiated after an alert GSA property disposal
GSA OIG, the Federal Bureau of Investigation and the            specialist noticed that Smith, who was employed as an
Treasury OIG, which revealed Jones fraudulently used the        FAA repair technician, improperly used an unassigned
Treasury and GSA seals to ostensibly authenticate false         activity code to screen federal excess property, although
information concerning the Department of the Treasury and       Smith was not authorized to screen and acquire federal
the GSA Surplus Property and Donation Program and               property. Records indicated that he unlawfully obtained
secure investments in fictitious humanitarian projects and      excess government property valued at approximately $3
business ventures throughout the world. In furtherance of       million, which included a 50-foot Cheoy Lee Fishing
his scheme, Jones told victims that he had resources in the     Yacht valued at $500,000. Smith and Garner worked
government able to secure items for investors to use in their   together to convert the majority of the excess federal
own projects, and that he was waiting for the Department of     property to their personal use and transported many
the Treasury to provide funding against $1.3 billion of 1918    items to Canada.
Chinese gold bonds he possessed.
                                                                Former Reserve Police Officer Sentenced for Theft
Securities Fraud Leads to Three Year Debarment                  On July 13, 2010, Derrick Arrasmith pleaded guilty to a
On May 17, 2010, the General Services Administration,           misdemeanor violation of the Kansas state criminal
Office of Acquisition Integrity, debarred Michael J. Nolan,     deprivation of property statute and was sentenced to six
former CFO of United Rentals, Inc. (URI), and John N.           months of confinement in the county jail.The sentence was
Milne, Former Vice-Chairman, President and CFO of               suspended and Arrasmith was placed on supervised
URI, from participating in federal procurement and non-         probation for a period of six months. This GSA OIG
procurement programs for a three-year period. The               investigation was initiated after a GSA property disposal
debarment was based upon a GSA OIG investigation                specialist provided information revealing that Arrasmith, a
that revealed the Securities Exchange Commission had            former reserve police officer for the Udall (Kansas) Police
filed two separate series of federal securities fraud           Department, misappropriated and pawned a Colt 9 mm
charges against Nolan and Milne as the result of                submachine gun (SMG) that his department had acquired
fraudulent transactions they initiated to meet URI’s            through the GSA Firearms Donation Program. Arrasmith
earnings forecasts and analyst expectations. The duo            never returned to pay off the loan from the pawn shop and
committed fraud through a series of interlocking three-         the SMG was put up for sale. The weapon was recovered
party transactions, structured as “minor sale-leasebacks,”      by the Bureau of Alcohol, Tobacco, and Firearms during a
to allow URI to recognize revenue prematurely and to            compliance inspection at the pawn shop.
inflate profits generated from the sales.




                                                                                     April 1, 2010 – September 30, 2010 13
                                 Promoting and Protecting Integrity



Joint Investigation with DOE OIG Reveals Federal                conviction was conducted jointly by the GSA OIG and the
Employee Steered Contracts to Husband’s Company                 U.S. Army Criminal Investigations Division after it was
On June 3, 2010, a former Department of Energy                  alleged that several soldiers were improperly ordering
employee and her husband were each sentenced to                 items from the GSA Advantage system.
36-months of supervised release and ordered to pay a
$5,000 fine after Donna Scott (the former employee)             Army Sergeant Convicted of Making Illicit
pleaded guilty to federal conflict of interest violations and   Purchases Through GSA Advantage System
Timothy Scott pleaded guilty to federal false statement         On May 10, 2010, Sergeant Elizabeth Mendoza, U.S.
violations. The sentence follows a joint GSA OIG and            Army, pleaded guilty to one violation of Article 107 (False
Department of Energy OIG investigation which revealed           Official Statement); seven counts of Article 121 (Larceny);
that Donna Scott steered contracts to renovate the DOE          two counts of the Article 81 (Conspiracy); and one count
Headquarters cafeteria to businesses that agreed to hire        of Article 92 (Failure to Obey Order or Regulation) of the
her husband as a consultant for the project.Timothy Scott       Uniform Code of Military Justice and was subsequently
denied receiving compensation for his role in the project,      sentenced to a Bad Conduct Discharge and a reduction
but agents determined he received approximately                 in rank to E-1. The investigation leading to this conviction
$24,174 in commissions.                                         was conducted jointly by the GSA OIG and the U.S. Army
                                                                Criminal Investigation Division after it was alleged that
Staff Sergeant Sentenced in GSA Advantage Scheme                several soldiers were improperly ordering laptops,
On July 22, 2010, Staff Sergeant Joseph Copeland, U.S.          computer hard drives, and other electronic components
Army Reserve, was found guilty through a court martial          through the GSA Advantage system.
trial of violating Article 92 (Failure to Obey Order or
                                                                Wright Express Credit Card (WEX) Fraud Related
Regulation) and Article 121 (Larceny) of the Uniform
                                                                Cases
Code of Military Justice. He was sentenced to 120 days
of confinement and a $14,000 fine and reduced in rank           On April 30, 2010, Chief Petty Officer Luis Smith, U.S.
from E-6 to E-3. The investigation leading to this              Navy, was ordered to forfeit $1,546 in pay and issued a
conviction revealed that Copeland had used a U.S. Army          formal letter of reprimand pursuant to a U.S. Navy
account to purchase numerous items from the GSA                 Captain’s Mast proceeding where it was determined
Advantage Program, which he then sold on eBay for               Smith had violated Article 92 (Failure to Obey Order or
personal gain. A review of Copeland’s activity on eBay          Regulation) and Article 121 (Larceny) of the Uniform Code
disclosed items that matched what he previously had             of Military Justice. GSA OIG initiated an investigation when
purchased from the GSA Advantage program with the               information was developed indicating possible fraudulent
U.S. Army funds. The approximate loss to the U.S.               fuel purchases were being made with a Wright Express
government was over $80,000.                                    Credit Card assigned to the U.S. Navy Recruiting District
                                                                of Philadelphia between October 2009 and January 2010.
Army Chief Warrant Officer Convicted of Making                  Interviews and analysis of surveillance videos obtained
Illicit Purchases Through GSA Advantage System                  from local fuel stations disclosed that Smith had made the
                                                                fraudulent charges.
On June 24, 2010, Chief Warrant Officer Frank A. Bailey,
U.S. Army, was the subject of a court martial and               On August 5, 2010, Anton Poindexter was sentenced to
sentenced to 23 months of confinement, dismissed from           five years of probation and ordered to pay $6,584 in
the U.S. Army, and required to forfeited all pay and            restitution for his fraudulent use of a government Wright
allowances after pleading guilty to violation of Article 107    Express Credit Card that was assigned to the U.S. Navy
(False Official Statement), twenty-five counts of Article 121   Recruiting District of Philadelphia. This sentence follows
(Larceny), one count of Article 81 (Conspiracy), one count      an investigation that was initiated after the OIG identified
of Article 92 (Failure to Obey Order or Regulation), nine       several suspicious transactions associated with the card
counts of Article 80 (Attempted Larceny), and two counts        occurring at various fuel stations throughout the
of Article 134 (Adultery and Fraternization) of the Uniform     Philadelphia area during September and October of 2007.
Code of Military Justice. The investigation leading to this     The suspicious transactions included multiple same-day

14 Semiannual Report to the Congress
                                 Promoting and Protecting Integrity



transactions and the purchase of fuel exceeding the             surveillance video and photographic images were
vehicle’s tank capacity. Interviews and analysis of             obtained of involved parties. The fraudulent charges
surveillance videos obtained from local fuel stations           identified to date exceed $35,000 and this case has been
revealed that the individual was using the card to fuel         accepted for criminal prosecution by the United States
multiple vehicles, which included several local taxicabs.       Attorney’s Office, Northern District of Illinois.

Former GSA PBS Official Sentenced After Spending                Petty Officer Sentenced for Misuse of Fleet Card
$61,000 on Gov’t Credit Card                                    On May 17, 2010, Petty Officer Darnell Hall, U.S. Navy,
On August 5, 2010, Daniel Voll, a former GSA Region 9           was convicted of Article 121, (Larceny) and Article 130
Public Buildings Service executive, was sentenced to            (Housebreaking) through court martial proceedings
three months confinement, 12 months probation, and              following a GSA OIG investigation that revealed that he
ordered to pay $61,000 in restitution, a $100,000 fine,         misused a GSA Fleet Management fuel credit card for
and a $100 special assessment fee after pleading guilty         personal gain, with resulting losses to the government in
to federal theft violations. The sentence culminated a          excess of $1,500. Hall was sentenced to a reduction in
GSA OIG investigation that revealed the former                  rank, ordered to 45 days of restriction and 45 days of
executive misused his position from 2005 to 2009 by             extra duty, fined one half month's pay, issued a
improperly charging approximately $61,000 to a GSA-             suspended fine of one half a month’s pay for 6 months,
issued purchase card for personal expenditures at               and ordered to pay full restitution to the government.
various lodging and dining establishments in the San
Francisco, California, area.                                    GSA OIG Expands Works Progress Administration
                                                                Artworks Recovery Efforts
Investigation Reveals Secret Fuel Tanks Used                    GSA is the custodian of the many works of art produced
to Facilitate Fleet Credit Card Fraud                           through the Works Progress Administration (WPA).
On July 22, 2010, Tony Mawyin was sentenced to six              Since commissioning art during the New Deal era,
months of incarnation in the San Bernardino County              many precious historical pieces have unlawfully made
(California) jail and three years of probation for California   their way into the marketplace and collectors’ hands.
theft violations. A restitution hearing is pending. The         The OIG continues its proactive efforts to recover these
sentence is the result of a joint investigation conducted       historical items by monitoring art sales in an effort to
by GSA OIG, the Federal Protective Service, and the             identify government-owned art and return it to GSA.
California Highway Patrol Investigative Services Unit           These efforts have been coordinated with the
that was initiated after GSA OIG received an alert from         Department of Justice and the FBI to maintain a list of
GSA Fleet Management Loss Prevention concerning                 lost and stolen WPA artwork and have resulted in the
suspect fuel purchases associated with a fuel credit            recovery of three WPA works of art during this reporting
card. The investigation discovered that Mawyin modified         period. In September 2010, the GSA OIG expanded its
a vehicle to hold several hundred gallons of fuel in            efforts to recover “American Cultural Property” (historic
hidden compartments and used them in conjunction with           works of art produced at government expense) to the
the fuel credit card to commit the theft.                       worldwide arena by establishing a strategic partnership
                                                                with Immigration and Customs Enforcement’s art
GSA OIG Agents Identify Over $35,000 in                         program staff.
Fraudulent Purchases Through Fleet Card
On June 22, 2010, a person was arrested and charged             On May 20, 2010, The Accident, a WPA era painting
with Illinois state misdemeanor theft violations following a    produced by Adrian Troy in 1936 with an appraised value
joint investigation conducted by GSA OIG and the Chicago        of approximately $25,000, was returned to U.S.
Police Department. The investigation revealed numerous          Government custody after it was found to be for sale on
unauthorized charges having been made on the same day           eBay. Investigation leading to this recovery revealed the
through several credit cards issued to Amtrak and               original possessor removed the WPA hallmarks from the
associated with GSA-leased vehicles. Several hours of           painting prior to sale to disguise its true ownership.



                                                                                    April 1, 2010 – September 30, 2010 15
                               Promoting and Protecting Integrity



Research conducted by GSA OIG agents and GSA’s               Suspension and Debarment Initiative
Fine Arts Program (FAP) office established provenance
                                                             GSA has a responsibility to ascertain whether the
through a photograph maintained in the National
                                                             people or companies it does business with are eligible
Archives. The possessor acknowledged ownership and
                                                             to participate in federally-assisted programs and
voluntarily returned the painting to U.S. Government
                                                             procurements, and that they are not considered
custody.
                                                             “excluded parties.” Excluded parties are individuals and
                                                             companies debarred, suspended, proposed for
On June 2, 2010, German Restaurant, a WPA era painting
                                                             debarment, or declared ineligible to receive contracts by
produced by Antoinette Gruppe was returned to U.S.
                                                             a Federal agency. The Federal Acquisition Regulation
Government custody. The investigation leading to the
                                                             authorizes an agency to suspend or debar individuals
recovery of this artwork was initiated in January 2010,
                                                             or companies for the commission of any offense
after GSA’s FAP office staff found the painting to be
                                                             indicating a lack of business integrity or business
offered for sale on eBay. GSA OIG agents subsequently
                                                             honesty that directly affects the present responsibility of
contacted the seller and advised them of the
                                                             a government contractor or subcontractor. The OIG has
government’s ownership of the painting. The seller
                                                             made it a priority to process and forward referrals to
subsequently agreed to maintain possession of the
                                                             GSA, so GSA can timely ensure that the government
painting while contesting title through his attorney. GSA
                                                             does not award contracts to individuals or companies
OIG agents and GSA FAP staff subsequently established
                                                             that lack business integrity or honesty.
provenance and the possessor returned the painting to
U.S. Government custody, pending the identification of a
                                                             During this reporting period, the OIG made 37 referrals
suitable place for public display.
                                                             for consideration of suspension/debarment to the GSA
                                                             Office of Acquisition Policy. GSA issued 74 suspension
On June 10, 2010, Cowboy Music from Broadway, a
                                                             and debarment actions based on current and previous
WPA era painting produced by Harold West in 1939,
                                                             OIG referrals.
was returned to U.S. Government custody. Efforts to
recover this painting began after GSA OIG agents
received information concerning its whereabouts, along       Integrity Awareness
with an April 2009 newspaper article published in the        The OIG presents Integrity Awareness Briefings
Weatherford Democrat (Texas) which described how a           nationwide to educate GSA employees on their
local resident had obtained the painting and wished to       responsibilities for the prevention of fraud and abuse and
return it to the appropriate entity but did not know who     to reinforce employees’ roles in helping to ensure the
to contact. GSA OIG agents contacted the possessor,          integrity of Agency operations. This period, we
verified its authenticity with the GSA FAP office and        presented 26 briefings attended by 597 regional and
arranged for its return. The painting is currently           Central Office employees. These briefings explain the
conserved, pending its display at a suitable location.       statutory mission of the OIG and the methods available
                                                             for reporting suspected instances of wrongdoing. In
A short documentary film on the WPA Art Recovery             addition, through case studies, the briefings make GSA
Project has been produced. The film includes interviews      employees aware of actual instances of fraud in GSA
with possessors, art historians, investigators, Public Art   and other Federal agencies and thus help to prevent
Program staff, Federal prosecutors, and interested           their recurrence. GSA employees are the first line of
others. A premiere has been scheduled for October            defense against fraud, abuse, and mismanagement.
2010 at the Detroit Institute of Arts, where John Sloan’s    They are a valuable source of successful investigative
Fourteenth Street at Sixth Avenue, a significant and         information.
valuable piece, is on loan. Additional screenings of the
film are planned for Washington, DC.                         Hotline
                                                             The OIG Hotline provides an avenue for employees and
                                                             other concerned citizens to report suspected wrongdoing.
                                                             Hotline posters located in GSA-controlled buildings

16 Semiannual Report to the Congress
                                 Promoting and Protecting Integrity



Significant Civil Actions and Criminal Investigations (continued)

encourage employees to use the Hotline.We also use our          During the current period, the OIG Office of Evaluation
FraudNet Hotline platform to allow Internet reporting of        & Analysis (OEA) reviewed the GSA FOIA Program. At
suspected wrongdoing. During this reporting period, we          the request of Senator Charles E. Grassley and
received 1,285 Hotline contacts. Of these contacts, 229         Representative Darrell Issa, OEA reviewed GSA’s
Hotline cases were initiated. In 73 of these cases, referrals   Freedom of Information Act (FOIA) program to
were made to GSA program officials for review and action        determine whether, and if so, the extent to which
as appropriate, 37 were referred to other Federal               political appointees are made aware of information
agencies for follow up, 88 were referred for OIG                requests and have a role in request reviews or
criminal/civil investigations or audits, and 12 did not         decision-making.
warrant further review.
                                                                OEA found that (i) about half of the GSA positions
Evaluation & Analysis                                           responsible for FOIA decision-making are occupied by
                                                                political appointees; (ii) formal participation by political
Inspections afford a flexible mechanism for optimizing          appointees in the GSA FOIA program has not caused
resources by utilizing a multidisciplinary staff,               a disproportionate amount of untimely initial decisions;
expanding coverage, and using alternative review                (iii) no one involved in GSA’s FOIA process suggested
methods and techniques. The inspection process                  that political appointees not formally connected to the
evaluates, reviews, studies or analyzes the Agency’s            Agency’s FOIA program are involved in FOIA decision-
programs and activities to provide factual and                  making or seek information about FOIA requestors;
analytical information, monitor compliance, measure             and (iv) a media-initiated FOIA request for email
performance, assess the efficiency and effectiveness,           exchanges between the staffs of three members of
share best practices, and inquire into allegations of           Congress and GSA was not processed in accordance
fraud, waste, abuse, and mismanagement.                         with GSA’s procedure.




                                                                                     April 1, 2010 – September 30, 2010 17
                                Governmentwide Policy Activities



We regularly provide advice and assistance on governmentwide policy matters to the Agency, as well as to other
Federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
of the central management role of the Agency in shaping governmentwide policies and programs, most of the
legislation and regulations reviewed invariably affect governmentwide issues in areas such as procurement, property
management, travel, and government management and information technology systems.

Interagency Committees and Working                            General for Auditing, Heartland Region Office of Inspector
                                                              General, participate in the quarterly meetings of the
Groups                                                        Western District of Missouri and Kansas Regional
We participate in a number of interagency committees          Procurement Fraud Working Group. The goal of this
and working groups to address government-wide issues          Working Group is to detect, prevent, and prosecute
that cut across agency lines including:                       procurement fraud.The meetings are chaired by the Chief
                                                              of the Fraud and Corruption Unit, U.S. Attorney’s Office,
• Council of the Inspectors General on Integrity and          for the Western District of Missouri and are attended by
  Efficiency (CIGIE). The IG is a member of the               investigators, agents, and auditors from various Federal
  Investigations Committee, Professional Development          Government agencies, including Offices of Inspectors
  Committee, and Homeland Security Roundtable.                General, the Federal Bureau of Investigation, and the
                                                              Department of Justice. In addition to improving contact
  o Federal Audit Executive Council (FAEC)                    among these agencies, the meetings have produced
    Contracting Committee. The Deputy Assistant               innovative methods to identify and prosecute fraud and
    Inspector General for Auditing, Acquisition               have helped develop collaborative cases involving
    Programs Audit Office, is our office’s designee to
                                                              multiple Government agencies.
    this committee, created in December 2007. This
    Committee provides a forum to share information          • TeamMate Technical Support Group. Our TeamMate
    about and coordinate reviews of significant                Technical Support Group participates in the TeamMate
    contract and procurement issues of interest to             Federal Users Group and the CCH TeamMate Users
    the IG community as well as the entire Federal
                                                               Group to discuss concerns and new challenges facing
    Government. The Committee also develops and
                                                               TeamMate users. TeamMate is an automated audit
    recommends best practices to be used by IGs in
                                                               paperwork management system that strengthens the
    addressing contracting issues.
                                                               audit process and increases efficiency.
• Recovery Accountability and Transparency Board
                                                             Government Infrastructure Protection Investigation
  Working Group (Recovery Working Group). The
  GSA OIG is a participating member of the Recovery          In 2007, the GSA OIG’s Office of Investigations
  Working Group, comprised of the 29 OIGs that are           observed a rise in the number of investigations involving
  responsible for performing oversight of Recovery Act       counterfeit products. The sale of counterfeit information
  funds. The Recovery Working Group is responsible for       technology equipment poses a significant vulnerability to
  examining oversight issues that cross all of the federal   government infrastructure. As the government-wide
  agencies that received Recovery Act funds. Further,        purchasing agent for many U.S. Government agencies,
  the Recovery Working Group provides advice and             GSA must be cognizant of the dangers posed by
  makes recommendations to the Recovery Funds                counterfeit products. As a result of their investigations,
  Working Group Committee on coordinated oversight           the GSA OIG recognized the critical need to more
  efforts that cross the federal, state, and local           efficiently identify government purchases that pose a
  governments.                                               vulnerability to government information and systems
                                                             and established the Government Infrastructure
• Regional Procurement Fraud Working Group. The              Protection Investigation initiative (GIPI). Partnering with
  Special Agent in Charge and the Regional Inspector         the U.S. Department of Homeland Security, Immigration

18 Semiannual Report to the Congress
                                Governmentwide Policy Activities




and Customs Enforcement’s (ICE) Intellectual Property        requests from Congressional members on behalf of their
Rights Center in April 2010, the OIG can better facilitate   constituents. Additionally, we issued 48 subpoenas in
the identification of counterfeit suppliers.                 support of our audit, inspection, evaluative, and
                                                             investigative work. The OIG also made substantive
Legislation, Regulations, and                                comments on several proposed laws and regulations.
Subpoenas
During this reporting period, the OIG reviewed legislative
matters and proposed regulations as well as
commented on agency directives. We also responded to




                                                                                April 1, 2010 – September 30, 2010 19
                                 Professional Assistance Services



Government Auditing Standards prohibit Federal audit organizations (such as our OIG Office of Audits) from performing
certain types of management consulting projects because they may impair the independence of the auditors when
performing subsequent audit work in the same area. To maintain our independence when working closely with GSA
management, we carefully assess our services to ensure compliance with the standards.As allowed for under the standards,
we participate in Agency improvement task forces, committees, and working groups in an observer or advisor capacity.

Task Forces, Committees, and Working                            COs regarding negotiation objectives and discrete
                                                                negotiation issues for MAS contract awards. The Group
Groups                                                          also provided input to FAS regarding its efforts to
The OIG provides advice and counsel to GSA while                upgrade or enhance pricing performance measures for
monitoring ongoing Agency initiatives. Our representatives      MAS contracts.
advise management at the earliest possible opportunity
of potential problems; help ensure that appropriate            • GSA IT Governance Groups. In collaboration with the
management controls are in place when installing new             GSA Chief Information Officer (CIO) and other key
or modifying existing Agency systems; and offer possible         Agency officials, our Information Technology Audit
solutions when addressing complex financial and                  Office monitors the Agency’s efforts to establish a
operational issues.                                              streamlined, enterprise-level IT governance structure
                                                                 and agency-wide processes in which key roles and
Our participation with the Agency on task forces,                responsibilities for GSA’s Service, Staff, and Regional
committees, and working groups – typically as nonvoting          Offices are clear. For instance, the IT Executive Council
advisory members – allows us to contribute our expertise         advises GSA’s senior management team regarding
and advice, while improving our own familiarity with the         agency-wide challenges that include strategic
Agency’s rapidly changing systems. We nevertheless               technology solutions and risk management practices
maintain our ability to independently audit and review           for major IT investments and systems.The Office of the
Agency programs.                                                 CIO also co-chairs the following seven committees and
                                                                 agency-wide task force groups: (1) Portfolio
The areas in which we have been involved this period             Management Committee, (2) Information Assurance
include:                                                         Committee, (3) Enterprise Architecture Committee, (4)
                                                                 Enterprise Infrastructure Committee, (5) Enterprise
• The Multiple Award Schedule (MAS) Working Group.               Applications and Services Committee, (6) Identity
  The Working Group (Group) was established as a result          Credential Access Management Task Force, and (7)
  of an August 2001 OIG report related to MAS pricing. It        Data Management Task Force.
  is primarily comprised of members from the Federal
  Acquisition Service (FAS) and the OIG. However, the
  Office of the Chief Acquisition Officer and other Agency     Internal Evaluation
  ad hoc members are also represented. The Group               • Operational Assessments. The OIG Office of Evaluation
  serves as an effective communications channel for both         & Analysis (OEA) conducts operational assessments of
  broad policy issues and discrete issues having to do with      OIG field offices and other operating components.
  specific contracts or reviews. It has had several areas of
  focus, including preaward contract reviews and MAS           • Office of Forensic Auditing. The Office of Forensic
  negotiations issues. It has developed guidance to MAS          Auditing (Forensic Auditing) employs innovative auditing
  contracting officers (COs) regarding the performance           and investigative techniques to detect fraudulent or
  and use of preaward MAS contract reviews. Further, it          abusive conduct within Agency operations and programs.
  has reinvigorated the process by which FAS and the OIG         It develops evidence that meets the admissibility
  collaboratively select and commence preaward reviews           standards for prosecution in federal courts.
  of vendors. This process includes a specific mechanism
  by which COs can request reviews of individual vendors.       During this period, Forensic Auditing conducted
  The Working Group has focused on issuing guidance to          operations that led to the referral of seven American
                                                                Recovery and Reinvestment Act contractors to the

20 Semiannual Report to the Congress
                                 Professional Assistance Services



Internal Evaluation (continued)

 Office of Investigations for further examination.             and Audits to identify areas of staffing needs across the
 Forensic Auditing also provided data mining and data          field offices and to assist in strategic and succession
 analysis support to the Offices of Investigations and         planning. During this period, OEA has applied statistical
 Audits, uncovered and referred suspicious purchase            methods to a variety of areas of concern including
 card activity, and notified the GSA Data Integrity Board      assessments of the quality and completeness of
 Chairman of the existence of anomalies in the data            procurement data, suspension and debarment data, and
 associated with GSA’s transit benefit program.                small business data. Sampling and sample designs were
                                                               also developed focusing on topics ranging from pricing to
• Statistical Support for OIG Audits and Investigations.       discounts received for purchases. In addition, OEA
  The Office of Evaluation & Analysis continued to provide     statistical staff has served as consultants to an
  assistance in scientific sampling and database analysis to   examination of “green” initiatives, particularly focusing on
  the OIG auditors and investigators. Workload and             usage of fleet vehicles, and has provided assistance in
  resource analyses were performed for both Investigations     responding to information and congressional requests.




                                                                                   April 1, 2010 – September 30, 2010 21
                        Statistical Summary of OIG Accomplishments



Audit Reports Issued                                                 well as the status of those audits as of September 30,
                                                                     2010. Table 1 does not include 2 implementation reviews
The OIG issued 66 audit reports.The 66 reports contained
                                                                     that were issued during this period because they are
financial recommendations totaling $349,014,107
                                                                     excluded from the management decision process. Table
including $342,061,997 in recommendations that funds
                                                                     1 also does not include 1 report issued to another agency
be put to better use and $6,952,110 in questioned costs.
                                                                     this period. Furthermore, Table 1 does not include 4
Due to GSA’s mission of negotiating contracts for
                                                                     reports excluded from the management decision process
government-wide supplies and services, most of the
                                                                     because they pertain to ongoing investigations.
savings from recommendations that funds be put to
better use would be applicable to other Federal agencies.

Management Decisions on
Audit Reports
Table 1 summarizes the status of the universe of audits
requiring management decisions during this period, as




                           Table 1. Management Decisions on OIG Audits

                                                                                  Reports with                     Total
                                                           Number of               Financial                     Financial
                                                            Reports            Recommendations*              Recommendations
   For which no management decision
   had been made as of 04/01/2010
    Less than six months old                                    18                        8                       $26,085,141
    Six or more months old                                       8                        5                        $3,765,690
   Reports issued this period                                   63                       36                      $349,014,107
   TOTAL                                                        89                       49                      $378,864,938

   For which a management decision
   was made during the reporting period
    Issued prior periods                                        26                       13                       $29,850,831
    Issued current period                                       40                       25                      $186,921,670
   TOTAL                                                        66                       38                      $216,772,501

   For which no management
   decision had been made
   as of 09/30/2010
    Less than six months old                                    23                       11                      $162,092,437
    Six or more months old                                       0                        0                                $0
   TOTAL                                                        23                       11                      $162,092,437

   *These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




22 Semiannual Report to the Congress
                      Statistical Summary of OIG Accomplishments



Management Decisions on Audit Reports with Financial Recommendations
Tables 2 and 3 present the audits identified in Table 1 as containing financial recommendations by category (funds to
be put to better use or questioned costs).



                    Table 2. Management Decisions on OIG Audits with
                    Recommendations that Funds be Put to Better Use

                                                   Number of                                      Financial
                                                    Reports                                   Recommendations
   For which no management
   decision had been made
   as of 04/01/2010
    Less than six months old                             6                                        $24,010,910
    Six or more months old                               3                                         $1,146,952
   Reports issued this period                           27                                       $342,061,997
   TOTAL                                                36                                       $367,219,859

   For which a management
   decision was made during
   the reporting period
     Recommendations agreed to
     by management                                      28                                       $206,356,167
     Recommendations not agreed
     to by management                                    0                                                 $0
   TOTAL                                                28                                       $206,356,167

   For which no management
   decision had been made
   as of 09/30/2010
    Less than six months old                             8                                       $160,863,692
    Six or more months old                               0                                                 $0
   TOTAL                                                 8                                       $160,863,692




                                                                                April 1, 2010 – September 30, 2010 23
                      Statistical Summary of OIG Accomplishments




      Table 3. Management Decisions on OIG Audits with Questioned Costs

                                       Number of                   Questioned
                                        Reports                      Costs
   For which no management
   decision had been made
   as of 04/01/2010
    Less than six months old               4                       $ 2,074,231
    Six or more months old                 2                        $2,618,738
   Reports issued this period             11                        $6,952,110
   TOTAL                                  17                       $11,645,079

   For which a management
   decision was made during
   the reporting period
     Disallowed costs                      9                        $7,725,111
     Costs not disallowed                  4                        $2,691,223
   TOTAL                                  13                       $10,416,334

   For which no management
   decision had been made
   as of 09/30/2010
    Less than six months old               4                        $1,228,745
    Six or more months old                 0                                $0
   TOTAL                                   4                        $1,228,745




24 Semiannual Report to the Congress
                        Statistical Summary of OIG Accomplishments



Investigative Workload                                                GSA employees, contractors, or private individuals doing
                                                                      business with the government.
The OIG opened 157 investigative cases and closed 122
cases during this period. In addition, the OIG received
                                                                      During this period, the OIG also made 4 referrals to GSA
and evaluated 52 complaints and allegations from
                                                                      officials for information purposes only.
sources other than the Hotline that involved GSA
employees and programs. Based upon our analyses of
these complaints and allegations, OIG investigations                  Actions on OIG Referrals
were not warranted.                                                   Based on these and prior referrals, 38 cases (62
                                                                      subjects) were accepted for criminal prosecution and 8
Referrals                                                             cases (8 subjects) were accepted for civil litigation.
                                                                      Criminal cases originating from OIG referrals resulted in
The OIG makes criminal referrals to the Department of                 26 indictments/informations and 22 successful
Justice or other authorities for prosecutive consideration,           prosecutions. OIG civil referrals resulted in 12 case
and civil referrals to the Civil Division of the Department of        settlements. Based on OIG administrative referrals,
Justice or to U.S. Attorneys for litigative consideration.The         management debarred 30 contractors/individuals,
OIG also makes administrative referrals to GSA officials              suspended 44 contractors/individuals, and took 12
on certain cases disclosing wrongdoing on the part of                 personnel actions against employees.




                                   Table 4. Summary of OIG Referrals

           Type of Referral                                Cases                                     Subjects

           Criminal                                              61                                     107
           Civil                                                 18                                      20
           Administrative                                        52                                      63
           Suspension                                            12                                      18
           Debarment                                             10                                      19

           TOTAL                                             153                                        224




                                                                                          April 1, 2010 – September 30, 2010 25
                        Statistical Summary of OIG Accomplishments



Monetary Results                                            of criminal and civil actions arising from OIG referrals.
Table 5 presents the amounts of fines, penalties,
                                                            Table 6 presents the amount of administrative recoveries
settlements, recoveries, forfeitures, judgments, and
                                                            and forfeitures as a result of investigative activities.
restitutions payable to the U.S. Government as a result




                             Table 5. Criminal and Civil Recoveries

                                                          Criminal                     Civil

          Fines and Penalties                             $301,147

          Settlements                                                            $200,591,906

          Recoveries

          Forfeitures                                     1,737,351

          Seizures                                           1,157

          Restitutions                                    1,252,912

          TOTAL                                       $3,292,567                 $200,591,906




                                  Table 6. Other Monetary Results

          Administrative Recoveries                   $1,684,272

          Forfeitures                                        4,405

          TOTAL                                       $1,688,677




26 Semiannual Report to the Congress
APPENDICES
                     Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,            failure to cite contractual PPD terms on invoices; issuing a
the GSA Office of the Chief Financial Officer, Office of the   Procurement Information Notice (PIN) that ensures that
Controller, is responsible for tracking the implementation     acquisition personnel include applicable PPD terms in
of audit recommendations after a management decision           accordance with the GSAM when manually preparing GSA
has been reached. That office furnished the following          Forms 300; issuing guidance in the form of an Instructional
status information.                                            Letter (IL) or PIN on corrective actions contracting officers
                                                               may take when MAS vendor invoicing discrepancies are
Sixteen audits highlighted in prior reports to the             reported by the Industrial Operations Analysts (IOAs) via
Congress have not yet been fully implemented; These            Contractor Assistance Visits (CAV) reports or by any other
audits are being implemented in accordance with                means; and taking a formal position as to whether ordering
currently established milestones.                              activities can or cannot negotiate away PPDs. They are
                                                               scheduled for completion by August 15, 2011.
Federal Acquisition Service Blanket
Purchase Agreements for Acquisition                            Opportunities Exist to Improve GSA’s
Management Support Services                                    Implementation of the E2 Travel
Period First Reported: October 1, 2009 to March 31, 2010       System
                                                               Period First Reported: October 1, 2009 to March 31, 2010
The objectives of the audit were to evaluate controls FAS
implemented over the use of the BPAs and to determine if       The objective of the audit was to determine whether GSA’s
the GSA Federal Acquisition Service (FAS) planned and          implementation of the E2 system is effectively and
executed the procurement in accordance with the FAR            efficiently meeting management and user needs, including
and Recovery Act requirements. The report contained four       program and financial requirements, and the achievement
recommendations; two have not been implemented.                of intended goals and benefits for an e-Government
                                                               travel management system. The report contained two
The remaining recommendations involve FAS developing           recommendations, which have not been implemented.
and implementing a plan to monitor the effectiveness of
the BPA ordering guidance; and ensuring that future PBA        The recommendations involve the Chief Financial Officer
awards reflect consideration of the factors listed in FAR      taking the necessary actions to improve system usability
Subpart 8.405-3(a)(1) when determining the number of           and controls for system operations across GSA. They are
BPAs to establish for BPA awards. They are scheduled           scheduled for completion by April 15, 2011.
for completion by March 15, 2011.
                                                               GSA’s Fiscal Year 2009 Financial
Multiple Award Schedule Vendors’                               Statements
Invoicing Practices Relative to                                Period First Reported: October 1, 2009 to March 31, 2010
Prompt-Payment Discounts
Period First Reported: October 1, 2009 to March 31, 2010       The objective of the audit was to provide a report on internal
                                                               controls over financial reporting including safeguarding
The objective of the audit was to determine the extent to      assets and compliance with laws and regulations, and if
which the Government may be at risk of losing Prompt           necessary, to report instances in which GSA’s financial
Payment Discount (PPD) savings as the result of Multiple       management systems did not substantially comply with the
Award Schedule (MAS) vendors citing incorrect payment          requirements of the Federal Financial Management
terms on their invoices. The report contained seven            Improvement Act of 1996. The report contained 85
recommendations; four have not been implemented.               recommendations; 14 have not been fully implemented.

The remaining recommendations involve the Federal              The remaining recommendations involve the Chief
Acquisition Service seeking recoveries, when economical,       Financial Officer working with other agency officials to
advisable, and feasible from MAS vendors when there is a       correct three significant deficiencies relating to controls


                                                                                      April 1, 2010 – September 30, 2010 29
                      Appendix I–Significant Audits from Prior Reports



over: (1) budgetary accounts and transactions (2)                 Consistency in Implementing Policy
accounting and reporting of non-cancellable occupancy
agreements and (3) financial reporting. They are
                                                                  Across Acquisition Centers
scheduled for completion by October 15, 2011.                     Period First Reported: April 1, 2009 to September 30, 2009

                                                                  The objectives of the audit were to determine if policy
PBS’s Controls over Security of                                   and related guidance for the Multiple Award Schedule
Building Information in Online                                    (MAS) Program are being implemented effectively by
                                                                  the Centers, and to identify best practices for use by the
Environments                                                      Centers. The objectives were further narrowed to focus
Period First Reported: October 1, 2009 to March 31, 2010          on pricing, including rate escalation and price adjustment.
                                                                  The report contained four recommendations, which have
The objective of the audit was to determine if the Public         not been implemented.
Buildings Service (PBS) has implemented managerial,
physical, and technical controls to effectively mitigate          The recommendations involve developing and
risks inherent to sensitive but unclassified building             implementing policy and training for acquisition
information in online systems. The report contained two           personnel on a number of subjects, including most
recommendations, which have not been implemented.                 favored customer pricing, the use of cost analyses, and
                                                                  the use of volume discounting during negotiations;
The recommendations involve PBS working within the                assessing the viability of developing or establishing
framework of the GSA Office of the Chief Information              resources at the national level to support contracting
Officer security program to develop and implement a               officers in all Centers; fully implementing FSS Acquisition
security strategy for e-PM applications; and developing           letter FX-03-1; and ensuring the accuracy of contract
and conducting additional security awareness training for         information published in GSA Advantage. They are
project management and contracting personnel,                     scheduled for completion by December 15, 2011.
especially to those with significant security responsibilities.
They are scheduled for completion by April 15, 2011.
                                                                  The Procurement Management
                                                                  Review (PMR) Process
Recovery Act Report – Austin
                                                                  Period First Reported: April 1, 2009 to September 30, 2009
Courthouse Project
Period First Reported: October 1, 2009 to March 31, 2010          The objectives of the audit were to determine whether the
                                                                  PMRs are effective in identifying and communicating
The objective of the audit was to determine if PBS is             compliance issues to improve contracting officer
planning, awarding, and administering contracts for major         performance in complying with Federal acquisition laws
construction and modernization projects in accordance             and regulations; and the Chief Acquisition Officer has a
with prescribed criteria and Recovery Act mandates. The           mechanism for measuring the effectiveness of PMRs.
report contained two recommendations, which have not              The report contained two recommendations, which have
been implemented.                                                 not been implemented.

The recommendations involve PBS taking action to correct          The recommendations involve implementing program
the infirmities in the award of the option for Construction       improvements, including the use of a broad risk-based
Phase Services for the Austin Courthouse Project; and             approach across contracting activities and modifying the
performing a review of the cost of construction for the           contract sampling process, the dissemination and use of
Austin Courthouse project to ensure that it is fair and           best practices, and pursuing focused reviews when
reasonable based on information that is current, accurate,        appropriate; and improving the Outcome Analysis Tool
and complete. They are scheduled for completion by                and refining its usage to enhance quantification and
August 15, 2011.                                                  trend analysis of PMR results. They are scheduled for
                                                                  completion by November 15, 2010.



30 Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



Performance Measurement                                        Implementation of GSA’s IT
Improvements for the MAS Program                               Infrastructure Support Services
Period First Reported: April 1, 2009 to September 30, 2009     Consolidation Initiative
                                                               Period First Reported: April 1, 2009 to September 30, 2009
The objective of the audit was to determine if the Federal
Acquisition Service (FAS) has performance measures for         The audit objective was to assess whether risks with
MAS contracting officers that stress the importance of         GSA’s IT support services consolidation have been
contract quality, including pricing, and if not, to identify   adequately mitigated. The audit focused on determining
potential performance measures FAS could implement to          if: the GSA Infrastructure Technology Global Operations
ensure that MAS contracts reflect the intent and goals of      (GITGO) initiative is generating expected cost savings
the Schedules program. The report contained three              and other benefits; GSA’s consolidated IT Service Desk
recommendations, which have not been implemented.              is operating effectively, efficiently, and securely; and
                                                               GSA and the GITGO contractor are developing and
Two recommendations involve the development of                 implementing Information Technology Infrastructure
organizational measures emphasizing the importance of          Library (ITIL) processes to align IT support services
pricing to the Schedules program, and price analysis for       to customer needs. The report contained eight
risked-based sample of proposed awards or modifications        recommendations; one has not been implemented.
for FY 2010 and future scorecards. The third
recommendation centers on the establishment of an              The remaining recommendation involves the Chief
internal review program that can quantifiably assess           Information Officer addressing GITGO security
whether MAS contracts meet requirements for quality in         vulnerabilities, including mitigating the identified
terms of compliance with laws, regulations and guidelines.     vulnerabilities; enhancing hardening procedures for web
They are scheduled for completion by November 15, 2011.        application, databases, and operating system platforms;
                                                               and ensuring that IT security performance measures
Unnecessary Duplication within the                             allow for adequate oversight of the IT service desk. It is
                                                               scheduled for completion by November 15, 2010.
Office of General Supplies and
Services (GSS)
                                                               Management Controls over the Lease
Period First Reported: April 1, 2009 to September 30, 2009
                                                               Prospectus Process
The audit objective was to determine if unnecessary            Period First Reported: April 1, 2009 to September 30, 2009
duplication exists within General Supply Service (GSS),
with a specific focus on OMB’s assertion that unnecessary      The objective of the audit was to determine if
duplication exists between GSS and MAS. The report             management controls are in place to provide reasonable
contained four recommendations, which have not been            assurance that Public Buildings Service’s (PBS) leasing
implemented.                                                   transactions adhere to prospectus requirements. The
                                                               report contained five recommendations; four have not
The recommendations involve creating an accurate and           been implemented.
complete inventory of GSS MAS duplication; developing
and implementing a plan regarding prior audit                  The remaining recommendations involve: establishing a
recommendations on the 1649 process; issuing updated           consistent approach for evaluating leasing actions for
guidance on the 1649 process; and submitting a formal          prospectus compliance; improving communication and
Federal Procurement Data System change request to              coordination among the prospectus process participants;
resolve the issue that requires GSS to award separate          developing controls to monitor prospectus leases after
MAS contracts for small business set-asides. They are          award; and removing or identifying superseded
scheduled for completion by December 15, 2010.                 prospectus guidance in PBS’ internal websites. They are
                                                               scheduled for completion by January 15, 2011.




                                                                                      April 1, 2010 – September 30, 2010 31
                      Appendix I–Significant Audits from Prior Reports



Cost Estimates for the Los Angeles                           Improvements to the GSA Privacy Act
Courthouse Project                                           Program Are Needed to Ensure That
Period First Reported: April 1, 2009 to September 30, 2009   PII is Adequately Protected
                                                             Period First Reported: October 1, 2007 to March 31, 2008
The objective of the audit was to address Congress’s
request to determine if the project alternatives cost        The objectives of the audit were to determine if GSA:
estimates are supported and based on valid criteria,         manages sensitive personal information pursuant to
analysis and assumptions. The report contained one           legal and regulatory requirements, including e-
recommendation, which has not been implemented.              Government provisions for privacy controls; has
                                                             implemented technical, managerial, and operational
The recommendation involves improving PBS’s                  privacy-related controls to effectively mitigate risks
construction cost-estimating accuracy by monitoring          inherent to Privacy Act systems of records; and, has
cost estimates against actual results to identify factors    established procedures and automated mechanisms to
that could be enhanced. It is scheduled for completion       verify control efficacy. The report contained four
by December 15, 2010.                                        recommendations; one has not been implemented.

FY 2008 Office of Inspector General                          The remaining recommendation involves ensuring that
                                                             the Privacy Act Program is integrated with the agency's
FISMA Review of GSA’s Information                            security program. It is scheduled for completion by
Technology Security Program                                  February 15, 2011.
Period First Reported: April 1, 2008 to September 30, 2008
                                                             Multiple Award Schedule Program
The objectives of the audit were to assess the
effectiveness of controls over GSA systems and data          Contract Workload Management
and to address specific questions and reporting              Period First Reported: April 1, 2007 to September 30, 2007
requirements identified by OMB. Four systems were
reviewed, including one contractor system, to assess         The objective of the audit was to determine if the Federal
implementation of GSA’s IT Security Program. The             Acquisition Service was effectively managing the
report contained five recommendations; three have not        workload associated with processing contract actions in
been implemented.                                            the Schedules program. The report contained ten
                                                             recommendations; four have not been implemented.
The remaining recommendations involve working with
the Office of the Chief Acquisition Officer (OCAO) to        The remaining recommendations involve adopting a
develop standard requirements and deliverables for IT        more structured approach to reduce the number of
service contracts and task orders that promote               existing underutilized schedule contracts; establishing
compliance with GSA IT Security Policy and procedures;       specific nationwide guidance related to Price Analysis
working with OCAO and the Office of the Chief Human          Documentation Requirements and Negotiation Policies
Capital Officer (OCHCO) to ensure consistent background      and Techniques for schedule contracts; establishing
investigation requirements in policies, procedures, and      performance measures that evaluate (a) verification of
task orders; and expediting actions to implement             vendor disclosures related to Commercial Sales Practice,
encryption of mobile devices and two-factor                  (b) effectiveness in analyzing prices and conducting
authentication and to work with the OCHCO to promptly        negotiations, and (c) consideration of the field pricing
fulfill responsibilities for implementing a comprehensive    assistance; and developing standardized procedures for
breach notification policy. They are scheduled for           the initial screening of offers. They are scheduled for
completion by March 15, 2011.                                completion by April 15, 2012.




32 Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



Security of GSA’s Electronic
Messaging Services
Period First Reported: April 1, 2007 to September 30, 2007

Our review assessed whether GSA has adequate
security controls to manage risks with GEMS and
GNNI applications. The report contained seven
recommendations; one has not been implemented.

The remaining recommendation involves the GSA-CIO
working closely with Services/Staff Offices/Regions to
inventory all GSA's Lotus Notes databases and
applications and remove those that are outdated, lack
necessary controls, or do not adhere to guidelines. It is
scheduled for completion by April 15, 2011.




                                                             April 1, 2010 – September 30, 2010 33
                               Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to        Questioned
Date of         Audit                                                          Be Put to       (Unsupported)
Report          Number                    Title                                Better Use           Costs


(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)

PBS Internal Audits
05/03/10        A080106         Audit of GSA's Acquisition of Services for
                                the International Trade Center at the Ronald
                                Reagan Building

05/27/10        A090172         Recovery Act Report — 50 UN Plaza
                                Renovation Project Construction Contract
                                Review of PBS's Major Construction and
                                Modernization Projects Funded by the
                                American Recovery and Reinvestment Act
                                of 2009

06/24/10        A100116         Alert Report, Review of Health and Safety
                                Conditions at the Bannister Federal
                                Complex, Kansas City, Missouri

09/29/10        A100222         Review of Overpayments: Ackerman Decatur,
                                L.P., One West Court Square, Decatur,
                                Georgia, Lease Number GS-04B-39044


PBS Contract Audits
04/19/10        A100158         Report on Audit of Parts of a Proposal
                                Submitted as a Subcontractor in Response
                                to Solicitation No. GS11P05MKC0033:
                                Chermayeff & Geismar Partners, LLC

04/19/10        A100159         Report on Audit of Parts of a Proposal
                                Submitted in Response to Solicitation No.
                                GS11P05MKC0033: Beyer Blinder Belle
                                Architects and Planners, LLP

05/05/10        A100004         Examination of a Termination Settlement
                                Proposal: TMV, LLC, dba Triune Associates,
                                Contract Number GS-07P-07-UT-C-0017

05/06/10        A090165         Examination of a Claim: Permasteelisa
                                Cladding Technologies, LTD, Subcontractor
                                to Dick Corporation/Morganti Group, a Joint
                                Venture, Contract Number GS-09P-02-
                                KTC-0002



34 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                                Financial
                                                                           Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put to       (Unsupported)
Report     Number              Title                                 Better Use           Costs


05/28/10   A090195   Review of Construction Management
                     Services Contract: Bovis Lend Lease LMB,
                     Inc., Contract Number GS-02P-01-DTC-0032

06/02/10   A100084   Review of Proposed Rental Rate Increase                                $169,380
                     Lease Number GS-06P-40004, Internal
                     Revenue Service Center, 315 West Pershing
                     Road, Kansas City, Missouri

06/16/10   A100147   Limited Scope Postaward Examination of                                 $709,183
                     Architect/Engineering Proposal: AECOM
                     Transportation, a Division of AECOM U.S.,
                     Subcontractor to Ross Drulis Cusenbery
                     Architecture, Incorporated, Contract Number
                     GS-09P-03-KTC-0091

07/01/10   A100102   Examination of a Termination Settlement
                     Proposal: Comark Building Systems,
                     Incorporated, Subcontractor to TMV, LLC,
                     dba Triune Associates, Contract Number
                     GS-07P-07-UT-C-0017

07/15/10   A090060   Preaward Review of Change Order
                     Proposal: PAL Environmental Safety Corp.,
                     Subcontractor to Cauldwell Wingate
                     Company, LLC, Contract Number GS-02P-
                     05-DTC-0021(N)

07/16/10   A090225   Review of Construction Management
                     Services Contract: Bovis Lend Lease LMB,
                     Inc., Contract Number GS-02P-04-DTC-
                     0048(NEG), Modification No. PS09

07/21/10   A100126   Examination of a Claim: TechTeam
                     Government Solutions, Inc. Task Order
                     GSV0008PD0485 Under Contract Number
                     GS00V08PDD0071

07/23/10   A100147   Limited Scope Postaward Examination of                                 $851,633
                     Architect/Engineering Proposal: Ross Drulis
                     Cusenbery Architecture, Incorporated,
                     Contract Number GS-09P-03-KTC-0091

07/30/10   A100042   Examination of a Claim: Performance
                     Contracting, Inc., Subcontractor to Dick
                     Corporation/Morganti Group, a Joint Venture,
                     Contract Number GS-09P-02-KTC-0002


                                                                    April 1, 2010 – September 30, 2010 35
                               Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to        Questioned
Date of         Audit                                                          Be Put to       (Unsupported)
Report          Number                    Title                                Better Use           Costs


08/19/10        A100090         Examination of a Claim: Rosendin Electric,
                                Incorporated, Subcontractor to Dick
                                Corporation/Morganti Group, a Joint Venture,
                                Contract Number GS-09P-02-KTC-0002

09/16/10        A100148         Examination of a Change Order Proposal:
                                Alutiiq International Solutions, LLC,
                                Contract Number GS-08P-JF-C-0005



FAS Internal Audits
04/20/10        A100104         Implementation Review of the Review of
                                Federal Supply Service's Special Order
                                Program in the Heartland Region, Audit
                                Report Number A020204/F/6/V04010,
                                Dated September 27, 2004

06/04/10        A090139         Review of Federal Acquisition Service's
                                Client Support Center, Mid-Atlantic Region

06/04/10        A090139         Review of the Federal Acquisition Service's
                                Client Support Center, Southeast Sunbelt
                                Region

06/04/10        A090139         Review of the Federal Acquisition Service's
                                Client Support Center, National Capital
                                Region

06/07/10        A090139         Review of the Federal Acquisition Service's
                                Client Support Center, Greater Southwest
                                Region

06/11/10        A090203         Review of Controls over Contract Awards
                                and Modifications within the Center for
                                Information Technology Schedule Programs

06/21/10        A090139         Review of the Federal Acquisition Services's
                                Client Support Center, Pacific Rim Region

08/17/10        A090018         Review of the Use of Multiple Award Schedule
                                Contracts for Acquisition Management
                                Support Services

09/13/10        A100055         Review of Controls within FAS's Office of
                                Infrastructure Optimization — HSPD-12
                                Branch

36 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                                   Financial
                                                                              Recommendations
                                                                         Funds to        Questioned
Date of    Audit                                                        Be Put to       (Unsupported)
Report     Number               Title                                   Better Use           Costs


09/17/10   A090139    Review of the Federal Acquisition Service's
                      Client Support Centers

09/23/10   A090164    Review of American Recovery and
                      Reinvestment Act, Purchase of Vehicles



FAS Contract Audits
04/07/10   A100060    Preaward Review of Multiple Award Schedule
                      Contract Extension: Dynetics, Incorporated,
                      Contract Number GS-23F-0103K

04/21/10   A090197    Preaward Review of Multiple Award Schedule
                      Contract Extension: Data Systems Analysts,
                      Inc., Contract Number GS-35F-0074K

05/04/10   A090226    Preaward Review of Multiple Award Schedule
                      Contract Extension: Synnex Corporation,
                      Contract Number GS-35F-0143R

05/20/10   A090210    Preaward Examination of Multiple Award                                     $28,482
                      Schedule Contract Extension: Tremco
                      Incorporated, Contract Number GS-06F-
                      0047R

05/27/10   A090263    Preaward Review of Multiple Award Schedule
                      Contract Extension: Mantech SRS
                      Technologies, Inc., Contract Number GS-
                      23F-0083K

06/02/10   A100106    Preaward Review of Multiple Award Schedule
                      Contract Extension: Tetra Tech, Inc., Contract
                      Number GS-10F-0268K

06/15/10   A090077    Examination of Multiple Award Schedule                                     $4,254
                      Contract Number GS-10F-0268M for the
                      Period May 1, 2002 to June 14, 2009: Unisys
                      Corporation

06/15/10   A100093    Preaward Review of Multiple Award Schedule
                      Contract Extension: Executive Information
                      Systems, LLC, Contract Number GS-35F-
                      0170K

06/23/10   A090222    Preaward Review of Multiple Award
                      Schedule Contract Extension: Force 3, Inc.,
                      Contract Number GS-35F-0785J
                                                                       April 1, 2010 – September 30, 2010 37
                               Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to        Questioned
Date of         Audit                                                          Be Put to       (Unsupported)
Report          Number                    Title                                Better Use           Costs


06/24/10        A090108         Preaward Review of Multiple Award
                                Schedule Contract Extension: Integrated
                                Data Services, Inc., Contract Number GS-
                                35F-0272J

06/24/10        A090160         Preaward Review of Multiple Award Schedule
                                Contact Extension: Pelican Products, Inc.,
                                Contract Number GS-07F-0214J

06/30/10        A100081         Preaward Review of Mulitple Award Schedule
                                Contract Extension: Fleishman-Hillard, Inc.,
                                Contract Number GS-23F-0117K

07/06/10        A080070         Preaward Review of Multiple Award Schedule
                                Contract Extension: Accenture, LLP, Contract
                                Number GS-35F-4692G

07/07/10        A100061         Preaward Review of Multiple Award Schedule                      $3,090,825
                                Contract Extension: Akimeka, LLC, Contract
                                Number GS-35F-0234K

07/09/10        A100092         Preaward Examination of Multiple Award
                                Schedule Contract Extension: L-3 Services,
                                Inc., Contract Number GS-23F-0180K

07/15/10        A090261         Preaward Review of Multiple Award Schedule
                                Contract Extension: U.S. Training Center,
                                Inc., Contract Number GS-07F-0149K

07/21/10        A090174         Preaward Review of Multiple Award Schedule
                                Contract Extension: Odyssey Systems
                                Consulting Group, Contract Number GS-35F-
                                0207K

07/27/10        A090258         Preaward Review of Multiple Award Schedule
                                Contract Extension: Cray Inc., Contract
                                Number GS-35F-0196R

08/03/10        A100110         Preaward Examination of Multiple Award
                                Schedule Contract Extension: MVM, Inc.,
                                Contract Number GS-07F-0366K

08/12/10        A100164         Preaward Examination of Multiple Award                             $12,379
                                Schedule Contract Extention: Jardon and
                                Howard Technologies, Inc., Contract Number
                                GS-00F-0059M


38 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                                Financial
                                                                           Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put to       (Unsupported)
Report     Number              Title                                 Better Use           Costs


08/16/10   A090130   Limited Review of Multiple Award Schedule                               $83,696
                     Contract Number GS-28F-7018G for the
                     Period January 8, 2002 to November 7, 2005:
                     Cort Business Furniture

08/17/10   A100076   Preaward Review of Multiple Award Schedule
                     Contract Extension: Jacobs Technology
                     Incorporated, Contract Number GS-23F-
                     0111K

08/17/10   A100124   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Camber
                     Corporation, Contract Number GS-23F-
                     0374K

08/23/10   A100072   Preaward Review of Multiple Award Schedule
                     Contract Extension: Tecolote Research, Inc.,
                     Contract Number GS-23F-0105K

08/24/10   A090140   Postaward Review of Multiple Award                                    $392,685
                     Schedule Contract: Systems Research and
                     Applications Corporation, Contract Number
                     GS-35F-0735J

08/31/10   A100141   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Teledyne
                     Brown Engineering, Incorporated, Contract
                     Number GS-23F-0424K

09/02/10   A100066   Limited Scope Postaward Review of Multiple                           $869,608
                     Award Contract: Fleishman-Hillard, Inc.,
                     Contract Number GS-23F-0117K

09/08/10   A100150   Preaward Examination of Multiple Award
                     Schedule Contract Extension: CAS,
                     Incorporated, Contract Number GS-23F-
                     0002L

09/13/10   A090102   Preaward Review of Multiple Award Schedule
                     Contract Proposal: Protiviti Government
                     Services, Inc., Solicitation Number FCIS-JB-
                     980001B

09/15/10   A080124   Limited Scope Postaward Review of Contract                           $739,985
                     Number GS-35F-4027D for the Period July 1,
                     2003 to December 29, 2008: ASAP Software
                     Express, Inc.

                                                                    April 1, 2010 – September 30, 2010 39
                               Appendix II–Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                 Funds to        Questioned
Date of         Audit                                                           Be Put to       (Unsupported)
Report          Number                    Title                                 Better Use           Costs


09/30/10        A100082         Preaward Review of Multiple Award Schedule
                                Contract Extension: Pacific Maritime Freight,
                                Incorporated, Contract Number GS-07F-
                                5721R

09/30/10        A100077         Preaward Review of Multiple Award Schedule
                                Contract Extension: Northrop Grumman
                                Systems Corporation, Contract Number GS-
                                23F-0058K


Other Internal Audits
04/16/10        A100083         Implementation Review of Corrective Action
                                Plan, Review of GSA's University for People
                                National Capital Region, Report Number
                                A050250/O/W/F06017 Dated August 28,
                                2006

09/30/10        A100137         Audit of GSA's Fiscal Year 2009 Direct Pay
                                Purchases

09/30/10        A090221         Review of GSA's Suspension and Debarment
                                Process


Non-GSA Internal Audits
09/30/10        A100086         General Services Administration Office of
                                Inspector General's Independent Report on
                                Applying Agreed-Upon Procedures to the
                                Office of Personnel Management




40 Semiannual Report to the Congress
 Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal agency      In GSA, the Office of the Chief Financial Officer (OCFO) is
to complete final action on each management decision          responsible for monitoring and tracking open recommen-
required with regard to a recommendation in an Inspector      dations. While we continue to assist the Agency in resolv-
General's report within 12 months after the date of the       ing these open items, various litigative proceedings,
report. If the head of the Agency fails to complete final     continuing negotiations of contract proposals, and
action within the 12-month period, the Inspector General      corrective actions needed to undertake complex and
shall identify the matter in the semiannual report until      phased-in implementing actions often delay timely
final action is complete.                                     completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                             Title

Contract Audits
04/30/01         A010127         Audit of Billing under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                 Inc., Contract Number GS-06P-99-GZC-0315

10/18/01         A63630          Postaward Audit of Multiple Schedule Contract: The Presidio Corporation, Contract
                                 Number GS-00K-95-AGS-6170

03/25/03         A030140         Limited Scope Review of Termination Claim: Science Applications International
                                 Corp., Contract Number GS-35F-4461G

03/09/04         A030186         Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Contract
                                 Number GS-29F-0173G

03/09/04         A040162         Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                 Contract Number GS-29F-0173G

10/12/05         A050105         Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                 Contract Number GS-14F-003K

03/30/06         A050248         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                 Inc., Contract Number GS-09K-99-BHD-0006

04/18/06         A050122         Review of Industrial Funding Fee Remittances: Fasternal Company, Contract
                                 Number GS-06F-0039K
10/31/06         A060206         Postaward Review of Lease Costs and Pricing Data: Information Systems Support
                                 Incorporated, Contract Number GS-09K-99-BHD-0006

04/30/07         A060245         Preaward Review of Multiple Award Schedule Contract Extension: Comstor, Division
                                 of Westcon Group N.A., Inc., Contract Number GS-35F-4389G

08/28/07         A060196         Preaward Review of Request for Equitable Adjustment: Tigard Electric, Incorporated,
                                 Contract Number GS-10P-02-LTC-0025

04/10/08         A070168         Preaward Review of Multiple Award Schedule Contract Extension: MSC Industrial
                                 Direct Company, Inc., Contract Number GS-06F-0010N

04/29/08         A080084         Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                                 Company, LP, Contract Number GS-07P-05-URC-5007

05/05/08         A080107         Preaward Review of Multiple Award Schedule Contract Extension: Superior
                                 Protection Service, Inc., Contract Number GS-07F-0605N


                                                                                     April 1, 2010 – September 30, 2010 41
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


06/05/08        A070095         Preaward Review of Multiple Schedule Contract Extension: GTSI Corporation,
                                Contract Number GS-35F-4120D

06/11/08        A040224         Review of Multiple Award Schedule Contract: ADT Security Services, Inc., Contract
                                Number GS-07F-8854D

08/05/08        A080077         Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                                Contract Number GS-35F-5014H

10/29/08        A080151         Preaward Review of Multiple Award Schedule Contract Extension: SeaArk Marine,
                                Inc., Contract Number GS-07F-0012J

10/30/08        A080001         Review of MAS Contract: SunGard Availability Services, LP, Contract Number GS-
                                35F-0545K

12/12/08        A080177         Preaward Review of Multiple Award Schedule Contract Extension: Tecolote
                                Research, Incorporated, Contract Number GS-35F-5115H

12/16/08        A080185         Review of a Claim: Pacific Coast Steel, Contract Number GS-09P-02-KTC-0002

12/29/08        A090042         Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                                Sciences Corporation, Contract Number GS-00T-99-ALD-0204

12/31/08        A080191         Preaward Review of Multiple Award Schedule Contract Extension: Corporate
                                Lodging Consultants, Inc., Contract Number GS-33F-0009P

01/09/09        A080220         Review of a Claim: Boyett Door and Hardware, Contract Number GS-09P-02-KTC-
                                0002

01/20/09        A080136         Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                                Decisions, Inc., Contract Number GS-35F-5879H

01/28/09        A090005         Preaward Review of Multiple Award Schedule Contract Extension: Intratek
                                Computer Incorporated, Contract Number GS-35F-0178J

02/04/09        A080067         Preaward Review of Multiple Award Schedule Contract Extension: Haworth, Inc.,
                                Contract Number GS-28F-8014H

03/03/09        A080085         Preaward Review of Multiple Award Schedule Contract Extension: The HON
                                Company, Contract Number GS-28F-8047H

03/23/09        A080212         Preaward Review of Multiple Award Schedule Contract Extension: Phillips
                                Corporation-Federal Division, Contract Number GS-07F-7729C

04/01/09        A040224         Review of Multiple Award Schedule the Period February 1, 1996 through December
                                31, 2006: ADT Security Services, Inc., Contract Number GS-07F-8854D

04/07/09        A080137         Review of a Claim: Webcor Construction, Incorporated, Subcontractor to Dick
                                Corporation/Morganti Group, Contract Number GS-09P-02-KTC-002

04/07/09        A080181         Preaward Review of Multiple Award Schedule Contract Extension: i2, Inc., Contract
                                Number GS-35F-0241J


42 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


04/10/09   A090068   Preaward Review of Multiple Award Schedule Contract Extension: BAE Systems
                     Specialty Group, Inc., Contract Number GS-07F-5778P

04/23/09   A080203   Preaward Review of Multiple Award Schedule Contract Extension: SimplexGrinnell
                     LP, Contract Number GS-06F-0054N

04/27/09   A080210   Preaward Review of Multiple Award Schedule                 Contract    Extension:
                     immixTechnology, Inc., Contract Number GS-35F-033J

05/28/09   A090041   Preaward Review of MAS Contract Extension: Specialized Products Company,
                     Contract Number GS-06F-0011J

06/11/09   A080077   Limited Scope Postaward Review of Multiple Award Schedule Contract: Gartner,
                     Inc., Contract Number GS-35F-5014H

07/08/09   A090007   Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                     Hamilton, Inc., Contract Number GS-35F-0306J

08/06/09   A090145   Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                     Contract Number GS-35F-0546J

08/19/09   A090106   Preaward review of Multiple Award Schedule Contract Extension: Perot Systems
                     Government Services, Inc., Contract Number GS-00F-0049M
08/19/09   A080223   Preaward Review of Multiple Award Schedule Contract Extension: AT&T Corp.,
                     Contract Number GS-35F-0249J

08/20/09   A090117   Preaward Review of Multiple Award Schedule Contract Extension: Monster
                     Government Solutions, Contract Number GS-02F-0010P
08/21/09   A090090   Preaward Review of Multiple Award Schedule Contract Extension: Ezenia! Inc.,
                     Contract Number GS-35F-0475P

08/21/09   A080030   Preaward Review of Multiple Award Schedule Contract: Hewlett-Packard Company,
                     Solicitation Number FCIS-JB-980001-B

08/21/09   A080112   Preaward Review of Multiple Award Schedule Contract Extension: Altarum Institute,
                     Contract Number GS-35F-4912H

08/24/09   A090131   Preaward Review of Multiple Award Schedule Contract Extension: Avid Technology,
                     Inc., Contract Number GS-35F-0638J

08/27/09   A090228   Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeths West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center: Greenhorne & O'Mara, Inc., Solicitation Number GS-11P-08-
                     MKC-0079

09/03/09   A090089   Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet
                     Corporation, Less Carpets Division, Contract Number GS-27F-0031N

09/03/09   A090072   Preaward Review of Multiple Award Schedule Contract Extension: BAE Systems
                     Survivability Systems, LLC, Contract Number GS-07F-0177J

                                                                    April 1, 2010 – September 30, 2010 43
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                          Title


09/04/09        A090254         Report on Audit of Parts of a Firm Fixed price Proposal for Architectural and
                                Engineering Services on the New St. Elizabeths West Campus of the U.S.
                                Department of Homeland Security Headquarters and Consolidated National
                                Operations Center: Greenhorne & O'Mara, Inc., Solicitation Number GS-11P-08-
                                MKC-0080

09/04/09        A090074         Preaward Review of Multiple Award Schedule Contract Extension: Tech Flow, Inc.,
                                Contract Number GS-35F-0210J

09/08/09        A090217         Preaward Review of Architect/Engineering Change Order Proposal: AECOM U.S.,
                                Subcontractor to Ross Drulis Cusenbery Architecture, Incorporated, Contract
                                Number GS-09P-03-KTC-0091

09/09/09        A090232         Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                                Engineering Services on the New St. Elizabeths West Campus of the United States
                                Department of Homeland Security Headquarters and Consolidated National
                                Operations Center in Washington, DC: Haley & Aldrich, Inc., Solicitation Number
                                GS-11P-08-MKC-0079

09/09/09        A090230         Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                                Engineering Services on the New St. Elizabeths West Campus of the United States
                                Department of Homeland Security Headquarters and Consolidated National
                                Operations Center in Washington, DC: Goody, Clancy, and Associates, Inc.,
                                Solicitation Number GS-11P-08-MKC-0079

09/10/09        A090234         Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs: HDR
                                Architecture, Inc., Solicitation Number GS-11P-08-MKC-0079

09/11/09        A090242         Audit of Firm Fixed Price Subcontract Proposal: Olin Partnership, Solicitation
                                Number GS-11P-08-MKC-0080

09/14/09        A090239         Audit of Proposed Subcontract to Goody Clancy: Shen Milsom & Wilke, Soliticitation
                                Number GS-11P-08-MKC-0079

09/15/09        A090233         Report on Audit of Parts of a Subcontract Proposal: HC YU and Associates,
                                Solicitation Number GS-11P-08-MKC-0079

09/16/09        A090215         Preaward Review of Architect/Engineering Change Order Proposal: Ross
                                Cusenbery Architecture, Incorporated, Solicitation Number GS-09P-03-KTC-0091

09/16/09        A090237         Report on Audit of Parts of a Subcontract Firm Fixed Price Proposal: Rhodeside and
                                Harwell, Inc., Solicitation Number GS-11P-08-MKC-0079

09/17/09        A090246         Report on Audit of Parts of a Proposal: A&F Engineers, Inc., Solicitation Number GS-
                                11P-08-MKC-0080

09/21/09        A090231         Audit of a Proposed Subcontract to Goody Clancy: Gruzen Samton Architects, LLP,
                                Solicitation Number GS-11P-08-MKC-0079

09/21/09        A090253         Report on Audit of Parts of a Proposal: O'Neal Technologies, Inc., Solicitation
                                Number GS-11P-08-MKC-0080


44 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                    Title


09/21/09   A090252   Report on Audit of Subcontract Proposal to Zimmer Gunsul Frasca for St. Elizabeths
                     West Campus of the U.S. Department of Homeland Security: Code Consultants,
                     Inc., Solicitation Number GS-11P-08-MKC-0080

09/22/09   A090229   Audit of Parts of a Proposal for Architect & Engineering Professional Services: Arup
                     USA, Inc., Contract Number GS-11P-08-MKC-0079

09/23/09   A090245   Report on Audit of Parts of a Proposal: Thornton Tomasetti, Inc., Solicitation Number
                     GS-11P-08-MKC-0080

09/24/09   A090247   Firm Fixed Price Subcontract Proposal to Zimmer Gunsul Frasca: Hinman
                     Consulting Engineers, Inc., Solicitation Number GS-11P-08-MKC-0080

09/24/09   A090144   Preaward Review of Multiple Award Schedule Contract Extension: TMP Worldwide
                     Advertising & Communications LLC, Contract Number GS-23F-0076J

09/25/09   A090250   Report on Audit of Subcontract Proposal to Zimmer Gunsul Frasca for Architect
                     Engineering Professional Services: RTM Consultants, Inc., Solicitation Number GS-
                     11P-08-MKC-0080

09/25/09   A090241   Report on Audit of Parts of a Proposal for EYP Project: Einhorn Yaffee Prescott
                     Architecture & Engineering, P.C., Solicitation Number GS-11P-08-MKC-0080

09/25/09   A090118   Interim Postaward Review of Multiple Award Schedule Contract: Murray-Benjamin
                     Electric Co., Contract Number GS-35F-0088N

09/28/09   A090251   Report on Audit of Parts of a Firm-Fixed-Price Subcontract Proposal for the St.
                     Elizabeths East-west Campus, U.S. Department of Homeland Security: Kroll
                     Security Group, Solicitation Number GS-11P-08-MKC-0080
09/28/09   A090244   Report on Audit of Parts of a Proposal: JVP Engineers, P.C., Solicitation Number
                     GS-11P-08-MKC-0080

09/29/09   A090243   Report on Audit of Parts of a Proposal: Syska & Hennessy, Inc., Solicitation Number
                     GS-11P-08-MKC-0080

09/29/09   A090235   Report on Audit of Parts of a Firm-Fixed Price Subcontract Proposal: Kohnen-
                     Starkey, Inc., Solicitation Number GS-11P-08-MKC-0079

09/29/09   A090248   Report on Audit of Parts of a Subcontract Proposal: Schnabel Engineering, LLC,
                     Solicitation Number GS-11P-08-MKC-0080

Date of    Audit                                                                      Projected Final
Report     Number                                    Title                            Action Date



Internal Audits
07/31/07   A060190     Review of Multiple Award Schedule Program Contract             04/15/2012
                       Workload Management




                                                                      April 1, 2010 – September 30, 2010 45
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit                                                                          Projected Final
Report         Number                                            Title                        Action Date


09/12/07       A070180             Alert Report on Security of GSA's Electronic Messaging     04/15/2011
                                   Services and National Notes Infrastructure

03/31/08       A060228             Improvements to the GSA Privacy Act Program are            02/15/2011
                                   Needed to Ensure that Personally Identifiable
                                   Information is Adequately Protected

09/11/08       A080081             FY 2008 Office of Inspector General FISMA Review of        03/15/2011
                                   GSA's Information Technology Security Program

06/18/09       A070113             Review of the Implementation of GSA’s IT                   11/15/2010
                                   Infrastructure Support Services Consolidation Initiative

06/23/09       A080125             Review of Cost Estimates for the Los Angeles Courthouse    12/15/2010
                                   Project

07/15/09       A070199             Review of Management Controls over the Lease               01/15/2011
                                   Prospectus Process

09/30/09       A080226             Determination of Unnecessary Duplication within the        12/15/2010
                                   Office of General Supplies and Services Federal
                                   Acquisition Service

09/30/09       A070171             Review of Program Performance Measurement for              11/15/2011
                                   Procurement

09/30/09       A070118             Review of Consistency in Implementing Policy Across        12/15/2011
                                   Acquisition

09/30/09       A080121             Review of GSA’s OCAO’s Procurement Management              11/15/2011
                                   Review Process




46 Semiannual Report to the Congress
                  Appendix IV–Government Contractor Audit Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the con-
tracting activity that contain significant audit findings – unsupported, questioned, or disallowed costs in an amount in
excess of $10 million, or other significant findings – as part of the Semiannual Report to the Congress. During this report-
ing period, the OIG issued no contract review reports that met this requirement.




                                                                                       April 1, 2010 – September 30, 2010 47
                   Appendix V–Audits Without Management Decision



Section 5(a)(10) of the IG Act as amended, requires a summary of each audit report issued before the commencement
of the reporting period for which no management decision has been made by the end of the reporting period. GSA has
a system in place to track audit reports and management decisions. Its purpose is to ensure that recommendations
and corrective actions indicated by the OIG and agreed to by management are addressed as efficiently and expedi-
tiously as possible. This period there were no audit reports that met this requirement.




48 Semiannual Report to the Congress
                                Appendix VI–Peer Review Results



The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an appendix containing: the results
of any peer review conducted by another Office of Inspector General (OIG) during the reporting period or if no peer
review was conducted, a statement identifying the date of the last peer review conducted; a list of any outstanding rec-
ommendations from any peer review conducted by another OIG that have not been fully implemented, the status of
the recommendation and an explanation why the recommendation is not complete; and, a list of any peer reviews con-
ducted by the OIG of another Office of Inspector General during the reporting period, including a list of any outstand-
ing recommendations made from any previous peer review that have not been fully implemented.

During this reporting period, the Office of Audits and the Office of Investigations had no peer reviews conducted on
their operations by another OIG. The last peer review conducted for the Office of Audits was September 2009, and
the last peer review for the Office of Investigations was conducted by the Department of the Treasury, Office of
Inspector General, in 2007. No material findings were reported from any peer review. In addition, we did not conduct
any peer reviews of another OIG during this reporting period. As such, there are no outstanding recommendations
made from any previous peer reviews that have not been fully implemented.




                                                                                   April 1, 2010 – September 30, 2010 49
                                     Appendix VII–Reporting Requirements



The table below cross-references the reporting                                     Congress in Senate Report No. 96-829 relative to the
requirements prescribed by the Inspector General Act                               1980 Supplemental Appropriations and Rescission Bill
of 1978, as amended, to the specific pages where they                              and the National Defense Authorization Act is also
are addressed. The information requested by the                                    cross-referenced to the appropriate page of the report.




Requirement                                                                                                                                         Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . 2–10

     Section 5(a)(2) – Recommendations with Respect to Significant
     Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–10

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where Information Was Refused . . . . . . . . . none

     Section 5(a)(6) – List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . . . 2–10

     Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . 24

     Section 5(a)(9) – Statistical Tables on Management Decisions on Recommendations
     That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

     Section 5(a)(10) – Summary of Audit Reports Issued Before the Commencement
     of the Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . none

     Section 5(a)(11) – Description and Explanation for Any Significant
     Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management Decisions with Which
     the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  National Defense Authorization Act

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

     Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49




50 Semiannual Report to the Congress
                           Appendix VIII–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Deputy Inspector General, Robert C. Erickson (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Director of Communications and Congressional Affairs, Dave Farley (JX) . . . . . . . . . . . . . . (202) 219-1062

Office of Counsel to the Inspector General
Counsel to the IG, Richard Levi (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

Office of Evaluation & Analysis
Director, Richard Parker (JE). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1641
Office of Forensic Auditing, Director Patricia D. Sheehan (JEF) . . . . . . . . . . . . . . . . . . . . . . (202) 273-4989

Office of Audits
Assistant IG for Auditing, Theodore R. Stehney (JA). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD) . . . . . . . . . . . . . . . . . . (202) 501-0374
Director, Audit Planning, Policy, and Operations Staff, Lisa Blanchard (JAO) . . . . . . . . . . . (202) 501-4865
Director, Administration and Data Systems Staff, Thomas P. Short (JAS) . . . . . . . . . . . . . . (202) 501-1366
Director, Special Projects Office, Paul J. Malatino (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 208-0021

Deputy Assistant Inspectors General for Auditing
Information Technology Audit Office, Carolyn Presley-Doss (JA-T) . . . . . . . . . . . . . . . . . . . (703) 308-1223
Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2322
Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . . . (202) 501-0006
Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189
Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4846

Regional Inspectors General for Auditing
National Capital Region Field Office, Barbara E. Bouldin (JA-W) . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . . (212) 264-8620
Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
Great Lakes Field Office, Adam R. Gooch (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744


                                                                                                     April 1, 2010 – September 30, 2010 51
                            Appendix VIII–OIG Offices and Key Officials



  Office of Investigations
  Assistant IG for Investigations, Gregory G. Rowe (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
  Deputy Assistant IG for Investigations, Geoffrey A. Cherrington (JID) . . . . . . . . . . . . . . . . . (202) 501-1397
  Director, Investigations Operations Division, Gerald R. Garren (JIB) . . . . . . . . . . . . . . . . . . (202) 501-4583

  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W). . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
  Philadelphia Regional Office, SAC James E. Adams (JI-3). . . . . . . . . . . . . . . . . . . . . . . . . . (215) 861-3550
  Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . (212) 264-7300
  Boston Regional Office, SAC Luis A. Hernandez (JI-1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (617) 565-6820
  Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
    Miami Resident Office, SA Dietrich Bohmer (JI-4M). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
  Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
    Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
  Western Regional Office, SAC Bryan D. Denny (JI-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
    Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

  Office of Administration
  Assistant IG for Administration, Larry Lee Gregg (JP). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-1041
  Deputy Assistant IG for Administration, Stephanie Burgoyne . . . . . . . . . . . . . . . . . . . . . . . . (202) 273-5006
  Budget, Planning, and Financial Management Division,
   Director Stephanie Burgoyne (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 273-5006
  Human Resources Division, Director Denise McGann (JPH) . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1734
  Information Technology Division, Director Michael McLaughlin (JPM) . . . . . . . . . . . . . . . . . (202) 219-2319
  Facilities Branch, Team Leader Carol Mulvaney (JPF) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-3119
  Contracts Branch, Team Leader Myra R. Hayes (JPC). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2887




52 Semiannual Report to the Congress
Notes




        April 1, 2010 – September 30, 2010 53
                                       Notes




54 Semiannual Report to the Congress
Notes




        April 1, 2010 – September 30, 2010 55
                                       Notes




56 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your

Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsaig.gov/hotline.htm

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
